App. 1
RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 21 a0044.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
-----------------------------------------------------------------------

MELANIE PELCHA,
Plaintiff-Appellant,
v.
MW BANCORP, INC.;
WATCH HILL BANK,
Defendants-Appellees.

)
)
)
)
)
)
)
)

No. 20-3511

Appeal from the United States District Court
for the Southern District of Ohio at Cincinnati.
No. 1:17-cv-00497—Douglas Russell Cole, District Judge.
Decided and Filed: February 19, 2021
Before: SUHRHEINRICH, McKEAGUE, and READLER,
Circuit Judges.
-----------------------------------------------------------------------

COUNSEL
ON BRIEF: Donald B. Hordes, RITTER & RANDOLPH, LLC, Cincinnati, Ohio, Paul Plotsker, THE
PLOTSKER LAW FIRM, INC., Cincinnati, Ohio,
Morris E. Fischer, MORRIS E. FISCHER, LLC, Silver
Spring, Maryland, for Appellant. Robin D. Miller,
ULMER & BERNE LLP, Cincinnati, Ohio, for Appellees.

App. 2
-----------------------------------------------------------------------

AMENDED OPINION
-----------------------------------------------------------------------

McKEAGUE, Circuit Judge. Melanie Pelcha was
an employee of Watch Hill Bank (“Watch Hill”) and its
holding company MW Bancorp Inc.1 until she was terminated for refusing to turn in a time-off request form.
Pelcha alleges that she was terminated on the basis
of her age in violation of the Age Discrimination in
Employment Act (“ADEA”). The district court dismissed her claims on summary judgment. We see no
error in the district court’s decision and AFFIRM.
I
Melanie Pelcha began working as a bank teller for
Watch Hill in August 2005. A new supervisor, Brenda
Sonderman, began overseeing Pelcha in May 2016 and
started to implement policy changes for employees. In
particular, Sonderman required her direct reports to
submit written requests for any time out of the office
instead of sending an email as had been done in the
past. These written requests had to be submitted by
the middle of the month before the month of the requested time off. In early July 2016, Pelcha planned to
take a few hours off from work but decided not to fill
out the written request form. Instead, she orally obtained permission from Sonderman. Pelcha “bridled at
1

Pelcha has not appealed the district court’s summary judgment order dismissing MW Bancorp Inc. from this case, so Watch
Hill is the only party at issue in this appeal.

App. 3
the notion of having to fill out a written request,” reviewed the employee handbook, and told Sonderman
that she was “not filling [the request out] because [she
didn’t] have to.” Despite her complaints, Pelcha completed the form and placed it in Sonderman’s office on
July 7, 2016, the day before her time off.
The next day, on July 8, 2016, Sonderman spoke
with Greg Niesen, then-President and CEO of Watch
Hill, at a regularly scheduled senior management
meeting. Sonderman told Niesen about Pelcha’s failure
to turn in the form as well as other workplace issues,
such as her negative attitude and failure to timely
complete tasks. Niesen stated that he had zero tolerance for insubordination and told everyone present
he intended to fire Pelcha. Additionally, Niesen asked
Sonderman to memorialize the chain of events in a
memo. Shortly thereafter, Niesen terminated Pelcha’s
employment on July 12, 2016, and informed her that it
was because of her insubordination.
Following her termination, Pelcha sued under the
ADEA for age discrimination. Pelcha was 47 years old
at the time of her termination. After discovery, Watch
Hill moved for summary judgment arguing that Pelcha
could not establish a prima facie case of age discrimination under the ADEA. The district court granted
summary judgment on the ADEA claim on April 17,
2020. This appeal followed.

App. 4
II
A. Legal Standards
We review a district court’s grant of summary
judgment de novo in determining whether there is a
genuine dispute of material fact. Miles v. S. Cent. Hum.
Res. Agency, Inc., 946 F.3d 883, 887 (6th Cir. 2020).
The ADEA prohibits employers from terminating employees “because of such individual’s age.” 29 U.S.C.
§ 623(a)(1). Meeting this “because of ” requirement is
no simple task. Plaintiffs must “prove by a preponderance of the evidence (which may be direct or
circumstantial) that age was the ‘but-for’ cause of
the challenged employer decision.” Gross v. FBL Fin.
Servs., Inc., 557 U.S. 167, 177–78 (2009). This requires
showing that age was the determinative reason they
were terminated; that is, they must show “that age was
the ‘reason’ that the employer decided to act.” Scheick
v. Tecumseh Pub. Schs., 766 F.3d 523, 529 (6th Cir.
2014) (quoting Univ. of Tex. Sw. Med. Ctr. v. Nassar,
570 U.S. 338, 350–51 (2013)). Under Gross, satisfying
but-for cause requires plaintiffs to show that age “had
a determinative influence on the outcome” of the employer’s decision-making process. Gross, 557 U.S. at
176 (quoting Hazen Paper Co. v. Biggins, 507 U.S. 604,
610 (1993)). So, to defeat summary judgment, Pelcha
must show a genuine dispute of material fact that,
if resolved in her favor, could persuade a reasonable
juror that age was the but-for cause of her termination.

App. 5
Pelcha contends that this framework has been
disrupted by a recent Supreme Court decision interpreting Title VII. In Bostock v. Clayton County, the Supreme Court interpreted Title VII’s “because of ”
language and concluded that it included terminations
with multiple motivations, and that plaintiffs need not
prove that sex was the only cause of the termination.
See 140 S. Ct. 1731, 1739 (2020) (stating that “[s]o long
as the plaintiff ’s sex was one but-for cause of that decision, that is enough to trigger the law”). Pelcha
claims that because of similar language in the ADEA
and Title VII, the reasoning in Bostock should be extended to change the meaning of “because of ” under
the ADEA.
Two reasons compel us to disagree. First, the
Court in Bostock was clear on the narrow reach of its
decision and how it was limited only to Title VII itself.
The Court noted that “none of ” the many laws that
might be touched by their decision were before them
and that they “do not prejudge any such question today.” Id. at 1753. Thus, the rule in Bostock extends no
further than Title VII and does not stretch to the
ADEA. Second, even if the Court had not expressly limited their holding to Title VII, it would not change our
analysis. “[I]f a precedent of [the Supreme] Court has
direct application in a case, yet appears to rest on
reasons rejected in some other line of decisions,” we
“should follow the case which directly controls, leaving
to [the Supreme] Court the prerogative of overruling
its own decisions.” EMW Women’s Surgical Ctr., P.S.C.
v. Friedlander, 978 F.3d 418, 436 (6th Cir. 2020)

App. 6
(quoting Agostini v. Felton, 521 U.S. 203, 237 (1997)).
As discussed above, Gross provides the meaning of “because of ” in the ADEA, and that decision controls our
analysis here.
Plaintiffs may show a violation of the ADEA
through either direct or circumstantial evidence. See
Scheick, 766 F.3d at 529. “Direct evidence is evidence
that proves the existence of a fact without requiring
any inferences” to be drawn. Rowan v. Lockheed Martin Energy Sys., Inc., 360 F.3d 544, 548 (6th Cir. 2004).
In other words, direct evidence is “smoking gun” evidence that “explains itself.” Gohl v. Livonia Pub. Schs.
Sch. Dist., 836 F.3d 672, 683 (6th Cir. 2016) (quotation
omitted). Conversely, circumstantial evidence requires
the factfinder to draw inferences from the evidence
presented to conclude that the plaintiff was terminated based on age. See Kline v. Tenn. Valley Auth., 128
F.3d 337, 348 (6th Cir. 1997).
If a plaintiff cannot show age discrimination with
direct evidence, plaintiffs may attempt to show age discrimination with circumstantial evidence, which we
evaluate using the three-step burden shifting analysis
set forth in McDonnell Douglas Corp. v. Green, 411 U.S.
792, 802–06 (1973). This analysis “first requires the
plaintiff to establish a prima facie case of discrimination.” Miles, 946 F.3d at 887. If the plaintiff succeeds,
the burden of production shifts to the employer to identify a legitimate, nondiscriminatory reason for the termination. Id. Once the employer identifies a reason,
the burden shifts back to the plaintiff to prove the employer’s reason is a mere pretext. Id. If the plaintiff

App. 7
prevails, the factfinder may reasonably infer discrimination. Id.
Regardless of the method, though, the ultimate inquiry remains the same: “the evidence must be sufficiently probative to allow a factfinder to believe that
the employer intentionally discriminated against the
plaintiff because of age.” Barnes v. GenCorp, Inc., 896
F.2d 1457, 1466 (6th Cir. 1990). We begin with direct
evidence.
B. Direct Evidence
Pelcha’s direct evidence argument focuses on three
sets of statements: (1) comments by Niesen that another employee in her eighties had a “limited shelf life”
and had reached her “expiration date;”2 (2) Niesen’s
statement that he intended to reduce that employee’s
hours until she quit; and (3) Niesen’s statement that
he would like to “hire younger tellers.”
In determining the materiality of allegedly discriminatory statements, we consider four factors, none
of which are dispositive: “(1) whether the statements
were made by a decision-maker . . . ; (2) whether the
statements were related to the decision-making process; (3) whether the statements were more than
merely vague, ambiguous or isolated remarks; and (4)
whether they were made proximate in time to the act
2

Pelcha also claims that Niesen said this employee was “too
old,” but the district court correctly noted that the “phrase does
not appear anywhere in the record evidence she offers in support
of her motion,” so we do not consider it here.

App. 8
of termination.” Diebel v. L & H Res., LLC, 492 F. App’x
523, 527 (6th Cir. 2012) (quoting Peters v. Lincoln Elec.
Co., 285 F.3d 456, 478 (6th Cir. 2002)). This is a high
bar. For example, we have rejected the idea that telling
someone to “retire and make everybody happy” was
direct evidence of age discrimination, as retirement
does not necessarily refer to someone’s age. See Scott v.
Potter, 182 F. App’x 521, 526 (6th Cir. 2006).
Niesen served as the President and CEO of Watch
Hill when he made these comments and was the individual who terminated Pelcha. But all the other factors
suggest these statements do not create a genuine dispute of material fact. None of the statements were related to Pelcha’s termination. In fact, they were not
made in relation to any termination decision and were
about an entirely different employee. Additionally,
nothing in the record suggests that the statements
were more than isolated remarks. Here, it appears as
though these statements were only made once or
twice to certain higher-level management employees.
Cf. Hannon v. Louisiana-Pac. Corp., 784 F. App’x 444,
448 (6th Cir. 2019) (finding that six comments within
“a short span of time” were not isolated remarks). And
the comments were vague in that “shelf life” and “expiration date” can refer to how long an employee has
spent at a company, not simply their age. See Scott, 182
F. App’x at 526 (discussing how “years of service” is a
concept distinct from “age”).
Furthermore, regarding Niesen’s comment about
a desire to hire younger tellers, we recently rejected a
very similar argument. In Miles, we held that a stated

App. 9
desire to “attract young people . . . says nothing about
terminating older employees.” Miles, 946 F.3d at 896.
The same principle applies here. Hiring younger tellers does not require the termination of older employees.
Finally, in terms of timing, the comments in question come from late 2015 or early 2016, more than six
months before Pelcha’s termination. We have previously suggested that time spans of six or seven months
can be temporally distant. See, e.g., Miles, 946 F.3d at
896; Diebel, 492 F. App’x at 528, 533 (suggesting that
“seven months is longer than most cases in which this
court has recognized temporal proximity”).
In reviewing direct evidence, we look for “evidence
from the lips of the defendant proclaiming his or her
. . . animus.” Diebel, 492 F. App’x at 526–27 (quoting
Smith v. Chrysler Corp., 155 F.3d 799, 805 (6th Cir.
1998)). Inferences are not permitted. See Rowan, 360
F.3d at 548. So, Pelcha has failed to create a genuine
dispute of material fact on whether she was terminated due to her age based on direct evidence.
C. Indirect Evidence
Turning to indirect evidence and the McDonnell
Douglas framework, Pelcha must first establish a
prima facie case of age discrimination. To do so, she
must show that (1) she was a member of a protected
class (older than 40 years old); (2) she suffered an adverse employment action; (3) she was qualified for the
position held; and (4) she was replaced by someone

App. 10
outside of the protected class or similarly situated nonprotected employees were treated more favorably. See
Geiger v. Tower Auto., 579 F.3d 614, 622–23 (6th Cir.
2009). This light burden is “ ‘easily met’ and ‘not onerous.’ ” Willard v. Huntington Ford, Inc., 952 F.3d 795,
808 (6th Cir. 2020) (quoting Provenzano v. LCI Holdings, Inc., 663 F.3d 806, 813 (6th Cir. 2011)).
Pelcha has met this burden. No parties dispute the
first three factors, and the allegedly ageist comments
discussed above by Niesen are sufficient to raise a
plausible inference of discrimination. So, Watch Hill
must provide a nondiscriminatory reason for her termination, which they have done by stating that Pelcha was terminated due to her insubordination. See
Raadschelders v. Columbus State Cmty. Coll., 377
F. Supp. 3d 844, 858 (S.D. Ohio 2019) (“The Sixth Circuit has repeatedly held that insubordination may
constitute a legitimate, nondiscriminatory reason for
adverse action.”) (citing Fullen v. City of Columbus, 514
F. App’x 601, 606 (6th Cir. 2013)).
Thus, the burden shifts back to Pelcha to show
that the insubordination is only a pretext to conceal
that the true motive for her firing was her age. Put
simply, the “commonsense” question here is: “did the
employer fire the employee for the stated reason or
not?” Chen v. Dow Chem. Co., 580 F.3d 394, 400 n.4
(6th Cir. 2009). Pelcha attempts to meet this burden
through five arguments: (1) that the reason has no basis in fact because she was not actually insubordinate,
(2) that Niesen’s allegedly ageist comments show her
termination was age-motivated, (3) that the rationales

App. 11
for her firing shifted over time, (4) that another employee engaged in the same conduct but was not terminated, and (5) that Watch Hill’s failure to adhere to its
disciplinary policy shows pretext. All five fail.
1. No basis in fact
To show pretext on the ground that the reason for
termination had no basis in fact, a plaintiff “must provide evidence that the employer’s allegations never
happened.” Miles, 946 F.3d at 888–89. In this analysis,
“the question is always whether the employer made up
its stated reason to conceal intentional discrimination.” Chen, 580 F.3d at 400 n.4.
Pelcha admits to telling Sonderman that she
would not fill out the form as Sonderman requested,
but argues that she was not insubordinate because she
eventually completed the form one day before she took
time off. Further, Pelcha claims that had Niesen only
investigated the incident further, he would have found
out that Pelcha “had submitted her written request after all, so, in the end, there was actually no insubordination.” This is incorrect. The insubordination was
Pelcha’s refusal to complete the form weeks in advance, as Sonderman’s policy required. Instead of completing the form, Pelcha “bridled at the notion of
having to fill out a written request” and flatly refused
to do it. Pelcha’s late completion of the form could not
cure her original refusal to follow Sonderman’s directive. And Pelcha’s claim that Sonderman was “not
in favor of ” terminating her and drafted the memo

App. 12
against her will is not supported by the record, as
Sonderman always maintained all of the facts underlying her recommendation were true and accurate.
2. Niesen’s comments
Pelcha claims that the comments made by Niesen,
previously discussed as potential direct evidence, could
serve as indirect evidence of an age-based motivation
for her firing. These included stating that another employee was past her “expiration date” and had a “limited shelf life,” and that Niesen had a preference for
hiring younger tellers.
These remarks are not sufficient to create a genuine dispute of material fact. They were infrequent comments directed towards one employee (who was forty
years older than Pelcha). They were not unambiguously ageist, as they could refer to duration at a company rather than age. See Scott, 182 F. App’x at 526;
cf. Hannon, 784 F. App’x at 448, 451 (holding that multiple comments referring to plaintiff as a “grandma”
and “little old lady” were sufficient to overcome summary judgment). They were not directed towards Pelcha,
not directed towards anyone near Pelcha’s age, and not
made in connection with any termination decision at
all. As the district court correctly concluded, “[a]llowing such comments to create a jury question would essentially mean that any potentially ageist comments,
about any employee, at any time, so long as made by
the same person who made the decision at issue would
suffice to get past summary judgment—even if the

App. 13
terminated employee is of a significantly different age
from the employee to whom the comments were directed. That is not reasonable.”
We agree. Previously, we have found pretext when
a decisionmaker told the plaintiff that he was “old and
fat” and “over-the-hill,” and also called him a “dinosaur” and “grandpa.” Willard, 952 F.3d at 813. Nothing
of the sort is present here, and these comments are too
isolated and sparse to create a genuine dispute of material fact. See Miles, 946 F.3d at 896 (holding that discriminatory remarks about terminated employees “can
only serve as pretext if ‘a person in a position to influence the alleged employment decision’ made them and
they are not ‘so isolated or ambiguous as to be nonprobative.’ ” (quoting Diebel, 492 F. App’x at 532–33)).
3. Shifting rationales
Providing evidence that an employer changed its
reasons for a termination can show pretext. But, while
“an employer’s shifting termination rationales are evidence that the proffered rationale may not have been
the true motivation for the employer’s actions,” id. at
890 (citing Cicero v. Borg-Warner Auto., Inc., 280 F.3d
579, 592 (6th Cir. 2002)), providing “additional, nondiscriminatory reasons that do not conflict with the
one stated at the time of discharge does not constitute
shifting justifications,” id. at 891 (quoting MacDonaldBass v. J.E. Johnson Contracting, Inc., 493 F. App’x 718,
726 (6th Cir. 2012)).

App. 14
Pelcha contends that a shift took place in the reason for her termination in the four days between July
8, 2016 and July 12, 2016. She claims that Niesen’s
original reason was insubordination, and that the reason he articulated when he terminated her was insubordination, but that sometime between those events
he “abandoned the idea of terminating [Pelcha] for
insubordination.” Pelcha’s evidence for this claim is
that Niesen asked Sonderman to draft a memo outlining the concerns she had with Pelcha (which included
her insubordination in failing to complete the form).
Pelcha argues this memo represents a shift from the
original reason for her firing.
But no shift exists. The memo is entirely consistently with Pelcha’s termination for insubordination.
The memo provides a detailed chain of events regarding Pelcha’s failure to complete the time-off form, as
well as other instances of Pelcha contributing to a negative work environment. To the extent that these reasons are distinct from insubordination, they were
additional reasons that did not conflict with insubordination. Therefore, they are not shifting justifications.
Additionally, Pelcha’s claim that Niesen had no intention to fire her until he received Sonderman’s memo is
not supported by the record.
4. Disparate treatment
To show pretext on disparate treatment, a plaintiff
must provide evidence that “employees outside the
protected class[ ] were not disciplined even though

App. 15
they engaged in substantially identical conduct to that
which [the employer] contends motivated its discipline
[of the plaintiff ].” Miles, 946 F.3d at 893 (quoting
Chattman v. Toho Tenax Am., Inc., 686 F.3d 339, 349
(6th Cir. 2012)). In examining another employee outside the protected class, we consider whether the employee: (1) “dealt with the same supervisor,” (2) was
“subject to the same standards,” and whether they
(3) “engaged in the same conduct without such differentiating or mitigating circumstances that would distinguish their conduct or the employer’s treatment of
them for it.” Ercegovich v. Goodyear Tire & Rubber Co.,
154 F.3d 344, 352 (6th Cir. 1998).
Pelcha alleges that another employee failed to
complete time-off request forms and was not terminated, and that this is evidence of disparate treatment
between Pelcha and the other employee because that
employee was under 40. Pelcha primarily relies upon
deposition testimony suggesting that sometimes this
employee would leave work “to pick up a prescription”
without filling out a written request form. Additionally,
that employee’s deposition suggested that she sometimes left the office for hours during the day without
filling out the request form.
However, this argument fails to create a genuine
dispute of material fact for two reasons. First, the insubordination at issue here was not Pelcha’s failure to
fill out the form. Instead, it was her refusal to do so
after Sonderman ordered her to complete it. Neglecting
to complete a time off form and defiantly refusing to do
so upon being asked by a superior are significantly

App. 16
different actions. Second, employees who are in higher
positions can be held to higher standards. See Miles,
946 F.3d at 894 (suggesting that managers can be
“subject to a different standard of conduct”). At the time
of her termination, Pelcha was in a managerial position and the other employee was not. Because Pelcha
and the other employee did not “engage[ ] in the same
conduct” and were not “subject to the same standards,”
Ercegovich, 154 F.3d at 352, Pelcha fails to show disparate treatment.
5. Disciplinary policy
Finally, Pelcha claims that Watch Hill’s failure to
follow the “Corrective Action Plans” section of their
employee manual shows pretext because she was terminated without any progressive steps taken. Not so.
The policy is clear that progressive discipline is “typically” implemented and “may follow” certain steps, but
the very next sentence makes clear that “[s]ome performance concerns are serious enough not to follow a
progressive schedule.” Indeed, Niesen was clear that
he had a zero-tolerance policy for insubordination and
determined he would immediately terminate insubordinate employees. And we have held that “an employer’s failure to follow self-imposed regulations or
procedures is generally insufficient to support a finding of pretext.” Miles, 946 F.3d at 896 (quoting White v.
Columbus Metro. Hous. Auth., 429 F.3d 232, 246 (6th
Cir. 2005)). So too here.

App. 17
III
At bottom, “an ‘employer may fire an employee for
a good reason, a bad reason, a reason based on erroneous facts, or for no reason at all, as long as its action is
not for a discriminatory reason.’ ” Miles, 946 F.3d at
886 (quoting Nix v. WLCY Radio/Rahall Commc’ns,
738 F.2d 1181, 1187 (11th Cir. 1984)). Considering this
evidence together, we find that Pelcha has failed to
create a genuine dispute of material fact as to whether
her termination was motivated by her age. Therefore,
we AFFIRM the district court.

App. 18
RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 21a0010p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
-----------------------------------------------------------------------

MELANIE PELCHA,
Plaintiff-Appellant,
v.
MW BANCORP, INC.;
WATCH HILL BANK,
Defendants-Appellees.

)
)
)
)
)
)
)
)

No. 20-3511

Appeal from the United States District Court
for the Southern District of Ohio at Cincinnati.
No. 1:17-cv-00497—Douglas Russell Cole, District Judge.
Decided and Filed: January 12, 2021
Before: SUHRHEINRICH, McKEAGUE, and READLER,
Circuit Judges.
-----------------------------------------------------------------------

COUNSEL
ON BRIEF: Donald B. Hordes, RITTER & RANDOLPH, LLC, Cincinnati, Ohio, Paul Plotsker, THE
PLOTSKER LAW FIRM, INC., Cincinnati, Ohio,
Morris E. Fischer, MORRIS E. FISCHER, LLC, Silver
Spring, Maryland, for Appellant. Robin D. Miller,
ULMER & BERNE LLP, Cincinnati, Ohio, for Appellees.

App. 19
-----------------------------------------------------------------------

OPINION
-----------------------------------------------------------------------

McKEAGUE, Circuit Judge. Melanie Pelcha was
an employee of Watch Hill Bank (“Watch Hill”) and its
holding company MW Bancorp Inc.1 until she was terminated for refusing to turn in a time-off request form.
Pelcha alleges that she was terminated on the basis of
her age in violation of the Age Discrimination in Employment Act (“ADEA”). The district court dismissed
her claims on summary judgment. We see no error in
the district court’s decision and AFFIRM.
I
Melanie Pelcha began working as a bank teller for
Watch Hill in August 2005. A new supervisor, Brenda
Sonderman, began overseeing Pelcha in May 2016 and
started to implement policy changes for employees. In
particular, Sonderman required her direct reports to
submit written requests for any time out of the office
instead of sending an email as had been done in the
past. These written requests had to be submitted by
the middle of the month before the month of the requested time off. In early July 2016, Pelcha planned to
take a few hours off from work but decided not to fill
out the written request form. Instead, she orally obtained permission from Sonderman. Pelcha “bridled at
1

Pelcha has not appealed the district court’s summary judgment order dismissing MW Bancorp Inc. from this case, so Watch
Hill is the only party at issue in this appeal.

App. 20
the notion of having to fill out a written request,” reviewed the employee handbook, and told Sonderman
that she was “not filling [the request out] because [she
didn’t] have to.” Despite her complaints, Pelcha completed the form and placed it in Sonderman’s office on
July 7, 2016, the day before her time off.
The next day, on July 8, 2016, Sonderman spoke
with Greg Niesen, then-President and CEO of Watch
Hill, at a regularly scheduled senior management
meeting. Sonderman told Niesen about Pelcha’s failure
to turn in the form as well as other workplace issues,
such as her negative attitude and failure to timely
complete tasks. Niesen stated that he had zero tolerance for insubordination and told everyone present
he intended to fire Pelcha. Additionally, Niesen asked
Sonderman to memorialize the chain of events in a
memo. Shortly thereafter, Niesen terminated Pelcha’s
employment on July 12, 2016, and informed her that it
was because of her insubordination.
Following her termination, Pelcha sued under the
ADEA for age discrimination. Pelcha was 47 years old
at the time of her termination. After discovery, Watch
Hill moved for summary judgment arguing that Pelcha
could not establish a prima facie case of age discrimination under the ADEA. The district court granted
summary judgment on the ADEA claim on April 17,
2020. This appeal followed.

App. 21
II
A. Legal Standards
We review a district court’s grant of summary
judgment de novo in determining whether there is a
genuine dispute of material fact. Miles v. S. Cent. Hum.
Res. Agency, Inc., 946 F.3d 883, 887 (6th Cir. 2020). The
ADEA prohibits employers from terminating employees “because of such individual’s age.” 29 U.S.C.
§ 623(a)(1). Meeting this “because of requirement is no
simple task. Plaintiffs must “prove by a preponderance
of the evidence (which may be direct or circumstantial)
that age was the ‘but-for’ cause of the challenged employer decision.” Gross v. FBL Fin. Servs., Inc., 557 U.S.
167, 177–78 (2009). That is, they must show that age
was the reason why they were terminated, not that age
was one of multiple reasons. Scheick v. Tecumseh Pub.
Schs., 766 F.3d 523, 529 (6th Cir. 2014). Under Gross,
either a termination is motivated by age, or it wasn’t.
So, to defeat summary judgment, Pelcha must show a
genuine dispute of material fact that, if resolved in her
favor, could persuade a reasonable juror that age was
the but-for cause of her termination.
Pelcha contends that this framework has been
disrupted by a recent Supreme Court decision interpreting Title VII. In Bostock v. Clayton County, the
Supreme Court interpreted Title VII’s “because of language and concluded that it included terminations
with multiple motivations, and that plaintiffs need not
prove that sex was the only cause of the termination.
See 140 S. Ct. 1731, 1739 (2020) (stating that “[s]o long

App. 22
as the plaintiff ’s sex was one but-for cause of that decision, that is enough to trigger the law”). Pelcha
claims that because of similar language in the ADEA
and Title VII, the reasoning in Bostock should be extended to change the meaning of “because of under the
ADEA.
Two reasons compel us to disagree. First, the
Court in Bostock was clear on the narrow reach of its
decision and how it was limited only to Title VII itself.
The Court noted that “none of the many laws that
might be touched by their decision were before them
and that they “do not prejudge any such question today.” Id. at 1753. Thus, the rule in Bostock extends no
further than Title VII and does not stretch to the
ADEA. Second, even if the Court had not expressly limited their holding to Title VII, it would not change our
analysis. “[I]f a precedent of [the Supreme] Court has
direct application in a case, yet appears to rest on reasons rejected in some other line of decisions,” we
“should follow the case which directly controls, leaving
to [the Supreme] Court the prerogative of overruling
its own decisions.” EMW Women’s Surgical Ctr., P.S.C.
v. Friedlander, 978 F.3d 418, 436 (6th Cir. 2020) (quoting Agostini v. Felton, 521 U.S. 203, 237 (1997)). As discussed above, Gross provides the meaning of “because
of ” in the ADEA, and that decision controls our analysis here.
Plaintiffs may show a violation of the ADEA
through either direct or circumstantial evidence. See
Scheick, 766 F.3d at 529. “Direct evidence is evidence
that proves the existence of a fact without requiring

App. 23
any inferences” to be drawn. Rowan v. Lockheed Martin Energy Sys., Inc., 360 F.3d 544, 548 (6th Cir. 2004).
In other words, direct evidence is “smoking gun” evidence that “explains itself.” Gohl v. Livonia Pub. Schs.
Sch. Dist., 836 F.3d 672, 683 (6th Cir. 2016) (quotation
omitted). Conversely, circumstantial evidence requires
the factfinder to draw inferences from the evidence
presented to conclude that the plaintiff was terminated based on age. See Kline v. Tenn. Valley Auth., 128
F.3d 337, 348 (6th Cir. 1997).
If a plaintiff cannot show age discrimination with
direct evidence, plaintiffs may attempt to show age discrimination with circumstantial evidence, which we
evaluate using the three-step burden shifting analysis
set forth in McDonnell Douglas Corp. v. Green, 411 U.S.
792, 802–06 (1973). This analysis “first requires the
plaintiff to establish a prima facie case of discrimination.” Miles, 946 F.3d at 887. If the plaintiff succeeds,
the burden of production shifts to the employer to identify a legitimate, nondiscriminatory reason for the termination. Id. Once the employer identifies a reason,
the burden shifts back to the plaintiff to prove the employer’s reason is a mere pretext. Id. If the plaintiff
prevails, the factfinder may reasonably infer discrimination. Id.
Regardless of the method, though, the ultimate inquiry remains the same: “the evidence must be sufficiently probative to allow a factfinder to believe that
the employer intentionally discriminated against the
plaintiff because of age.” Barnes v. GenCorp, Inc., 896

App. 24
F.2d 1457, 1466 (6th Cir. 1990). We begin with direct
evidence.
B. Direct Evidence
Pelcha’s direct evidence argument focuses on three
sets of statements: (1) comments by Niesen that another employee in her eighties had a “limited shelf life”
and had reached her “expiration date;”2 (2) Niesen’s
statement that he intended to reduce that employee’s
hours until she quit; and (3) Niesen’s statement that
he would like to “hire younger tellers.”
In determining the materiality of allegedly discriminatory statements, we consider four factors, none
of which are dispositive: “(1) whether the statements
were made by a decision-maker . . . ; (2) whether the
statements were related to the decision-making process; (3) whether the statements were more than
merely vague, ambiguous or isolated remarks; and (4)
whether they were made proximate in time to the act
of termination.” Diebel v. L & H Res., LLC, 492 F. App’x
523, 527 (6th Cir. 2012) (quoting Peters v. Lincoln Elec.
Co., 285 F.3d 456, 478 (6th Cir. 2002)). This is a high
bar. For example, we have rejected the idea that telling someone to “retire and make everybody happy” was
direct evidence of age discrimination, as retirement

2

Pelcha also claims that Niesen said this employee was “too
old,” but the district court correctly noted that the “phrase does
not appear anywhere in the record evidence she offers in support
of her motion,” so we do not consider it here.

App. 25
does not necessarily refer to someone’s age. See Scott v.
Potter, 182 F. App’x 521, 526 (6th Cir. 2006).
Niesen served as the President and CEO of Watch
Hill when he made these comments and was the individual who terminated Pelcha. But all the other factors
suggest these statements do not create a genuine dispute of material fact. None of the statements were related to Pelcha’s termination. In fact, they were not
made in relation to any termination decision and
were about an entirely different employee. Additionally, nothing in the record suggests that the statements
were more than isolated remarks. Here, it appears as
though these statements were only made once or
twice to certain higher-level management employees.
Cf. Hannon v. Louisiana-Pac. Corp., 784 F. App’x 444,
448 (6th Cir. 2019) (finding that six comments within
“a short span of time” were not isolated remarks). And
the comments were vague in that “shelf life” and “expiration date” can refer to how long an employee has
spent at a company, not simply their age. See Scott, 182
F. App’x at 526 (discussing how “years of service” is a
concept distinct from “age”).
Furthermore, regarding Niesen’s comment about
a desire to hire younger tellers, we recently rejected a
very similar argument. In Miles, we held that a stated
desire to “attract young people . . . says nothing about
terminating older employees.” Miles, 946 F.3d at 896.
The same principle applies here. Hiring younger tellers does not require the termination of older employees.

App. 26
Finally, in terms of timing, the comments in question come from late 2015 or early 2016, more than six
months before Pelcha’s termination. We have previously suggested that time spans of six or seven months
can be temporally distant. See, e.g., Miles, 946 F.3d at
896; Diebel, 492 F. App’x at 528, 533 (suggesting that
“seven months is longer than most cases in which this
court has recognized temporal proximity”).
In reviewing direct evidence, we look for “evidence
from the lips of the defendant proclaiming his or her
. . . animus.” Diebel, 492 F. App’x at 526–27 (quoting
Smith v. Chrysler Corp., 155 F.3d 799, 805 (6th Cir.
1998)). Inferences are not permitted. See Rowan, 360
F.3d at 548. So, Pelcha has failed to create a genuine
dispute of material fact on whether she was terminated due to her age based on direct evidence.
C. Indirect Evidence
Turning to indirect evidence and the McDonnell
Douglas framework, Pelcha must first establish a
prima facie case of age discrimination. To do so, she
must show that (1) she was a member of a protected
class (older than 40 years old); (2) she suffered an adverse employment action; (3) she was qualified for the
position held; and (4) she was replaced by someone
outside of the protected class or similarly situated
non-protected employees were treated more favorably.
See Geiger v. Tower Auto., 579 F.3d 614, 622–23 (6th
Cir. 2009). This light burden is “ ‘easily met’ and ‘not
onerous.’ ” Willard v. Huntington Ford, Inc., 952 F.3d

App. 27
795, 808 (6th Cir. 2020) (quoting Provenzano v. LCI
Holdings, Inc., 663 F.3d 806, 813 (6th Cir. 2011)).
Pelcha has met this burden. No parties dispute the
first three factors, and the allegedly ageist comments
discussed above by Niesen are sufficient to raise a
plausible inference of discrimination. So, Watch Hill
must provide a nondiscriminatory reason for her termination, which they have done by stating that Pelcha was terminated due to her insubordination. See
Raadschelders v. Columbus State Cmty. Coll., 377
F. Supp. 3d 844, 858 (S.D. Ohio 2019) (“The Sixth Circuit has repeatedly held that insubordination may constitute a legitimate, nondiscriminatory reason for
adverse action.” (citing Fullen v. City of Columbus, 514
F. App’x 601, 606 (6th Cir. 2013)).
Thus, the burden shifts back to Pelcha to show
that the insubordination is only a pretext to conceal
that the true motive for her firing was her age. Put
simply, the “commonsense” question here is: “did the
employer fire the employee for the stated reason or
not?” Chen v. Dow Chem. Co., 580 F.3d 394, 400 n.4
(6th Cir. 2009). Pelcha attempts to meet this burden
through five arguments: (1) that the reason has no basis in fact because she was not actually insubordinate,
(2) that Niesen’s allegedly ageist comments show her
termination was age-motivated, (3) that the rationales
for her firing shifted over time, (4) that another employee engaged in the same conduct but was not terminated, and (5) that Watch Hill’s failure to adhere to its
disciplinary policy shows pretext. All five fail.

App. 28
1. No basis in fact
To show pretext on the ground that the reason for
termination had no basis in fact, a plaintiff “must provide evidence that the employer’s allegations never
happened.” Miles, 946 F.3d at 888–89. In this analysis,
“the question is always whether the employer made up
its stated reason to conceal intentional discrimination.” Chen, 580 F.3d at 400 n.4.
Pelcha admits to telling Sonderman that she
would not fill out the form as Sonderman requested,
but argues that she was not insubordinate because she
eventually completed the form one day before she took
time off. Further, Pelcha claims that had Niesen only
investigated the incident further, he would have found
out that Pelcha “had submitted her written request
after all, so, in the end, there was actually no insubordination.” This is incorrect. The insubordination was
Pelcha’s refusal to complete the form weeks in advance, as Sonderman’s policy required. Instead of completing the form, Pelcha “bridled at the notion of
having to fill out a written request” and flatly refused
to do it. Pelcha’s late completion of the form could not
cure her original refusal to follow Sonderman’s directive. And Pelcha’s claim that Sonderman was “not
in favor of terminating her and drafted the memo
against her will is not supported by the record, as
Sonderman always maintained all of the facts underlying her recommendation were true and accurate.

App. 29
2. Niesen’s comments
Pelcha claims that the comments made by Niesen,
previously discussed as potential direct evidence, could
serve as indirect evidence of an age-based motivation
for her firing. These included stating that another employee was past her “expiration date” and had a “limited shelf life,” and that Niesen had a preference for
hiring younger tellers.
These remarks are not sufficient to create a genuine dispute of material fact. They were infrequent comments directed towards one employee (who was forty
years older than Pelcha). They were not unambiguously ageist, as they could refer to duration at a company rather than age. See Scott, 182 F. App’x at 526;
cf. Hannon, 784 F. App’x at 448, 451 (holding that multiple comments referring to plaintiff as a “grandma”
and “little old lady” were sufficient to overcome summary judgment). They were not directed towards
Pelcha, not directed towards anyone near Pelcha’s age,
and not made in connection with any termination decision at all. As the district court correctly concluded,
“[a]llowing such comments to create a jury question
would essentially mean that any potentially ageist
comments, about any employee, at any time, so long as
made by the same person who made the decision at
issue would suffice to get past summary judgment—
even if the terminated employee is of a significantly
different age from the employee to whom the comments were directed. That is not reasonable.”

App. 30
We agree. Previously, we have found pretext when
a decisionmaker told the plaintiff that he was “old and
fat” and “over-the-hill,” and also called him a “dinosaur” and “grandpa.” Willard, 952 F.3d at 813. Nothing
of the sort is present here, and these comments are too
isolated and sparse to create a genuine dispute of material fact. See Miles, 946 F.3d at 896 (holding that discriminatory remarks about terminated employees “can
only serve as pretext if ‘a person in a position to influence the alleged employment decision’ made them and
they are not ‘so isolated or ambiguous as to be nonprobative.’ ” (quoting Diebel, 492 F. App’x at 532–33)).
3. Shifting rationales
Providing evidence that an employer changed its
reasons for a termination can show pretext. But, while
“an employer’s shifting termination rationales are evidence that the proffered rationale may not have been
the true motivation for the employer’s actions,” id. at
890 (citing Cicero v. Borg-Warner Auto., Inc., 280 F.3d
579, 592 (6th Cir. 2002)), providing “additional, nondiscriminatory reasons that do not conflict with the
one stated at the time of discharge does not constitute
shifting justifications,” id. at 891 (quoting MacDonaldBass v. J.E. Johnson Contracting, Inc., 493 F. App’x 718,
726 (6th Cir. 2012)).
Pelcha contends that a shift took place in the reason for her termination in the four days between July
8, 2016 and July 12, 2016. She claims that Niesen’s
original reason was insubordination, and that the

App. 31
reason he articulated when he terminated her was
insubordination, but that sometime between those
events he “abandoned the idea of terminating [Pelcha]
for insubordination.” Pelcha’s evidence for this claim is
that Niesen asked Sonderman to draft a memo outlining the concerns she had with Pelcha (which included
her insubordination in failing to complete the form).
Pelcha argues this memo represents a shift from the
original reason for her firing.
But no shift exists. The memo is entirely consistently with Pelcha’s termination for insubordination.
The memo provides a detailed chain of events regarding Pelcha’s failure to complete the time-off form, as
well as other instances of Pelcha contributing to a
negative work environment. To the extent that these
reasons are distinct from insubordination, they were
additional reasons that did not conflict with insubordination. Therefore, they are not shifting justifications.
Additionally, Pelcha’s claim that Niesen had no intention to fire her until he received Sonderman’s memo is
not supported by the record.
4. Disparate treatment
To show pretext on disparate treatment, a plaintiff
must provide evidence that “employees outside the
protected class[ ] were not disciplined even though
they engaged in substantially identical conduct to that
which [the employer] contends motivated its discipline
[of the plaintiff ].” Miles, 946 F.3d at 893 (quoting
Chattman v. Toho Tenax Am., Inc., 686 F.3d 339, 349

App. 32
(6th Cir. 2012)). In examining another employee outside the protected class, we consider whether the employee: (1) “dealt with the same supervisor,” (2) was
“subject to the same standards,” and whether they (3)
“engaged in the same conduct without such differentiating or mitigating circumstances that would distinguish their conduct or the employer’s treatment of
them for it.” Ercegovich v. Goodyear Tire & Rubber Co.,
154 F.3d 344, 352 (6th Cir. 1998).
Pelcha alleges that another employee failed to
complete time-off request forms and was not terminated, and that this is evidence of disparate treatment
between Pelcha and the other employee because that
employee was under 40. Pelcha primarily relies upon
deposition testimony suggesting that sometimes this
employee would leave work “to pick up a prescription”
without filling out a written request form. Additionally,
that employee’s deposition suggested that she sometimes left the office for hours during the day without
filling out the request form.
However, this argument fails to create a genuine
dispute of material fact for two reasons. First, the insubordination at issue here was not Pelcha’s failure to
fill out the form. Instead, it was her refusal to do so
after Sonderman ordered her to complete it. Neglecting
to complete a time off form and defiantly refusing to
do so upon being asked by a superior are significantly
different actions. Second, employees who are in higher
positions can be held to higher standards. See Miles,
946 F.3d at 894 (suggesting that managers can be
“subject to a different standard of conduct”). At the

App. 33
time of her termination, Pelcha was in a managerial
position and the other employee was not. Because
Pelcha and the other employee did not “engage[ ] in the
same conduct” and were not “subject to the same
standards,” Ercegovich, 154 F.3d at 352, Pelcha fails to
show disparate treatment.
5. Disciplinary policy
Finally, Pelcha claims that Watch Hill’s failure to
follow the “Corrective Action Plans” section of their
employee manual shows pretext because she was terminated without any progressive steps taken. Not so.
The policy is clear that progressive discipline is “typically” implemented and “may follow” certain steps, but
the very next sentence makes clear that “[s]ome performance concerns are serious enough not to follow a
progressive schedule.” Indeed, Niesen was clear that
he had a zero-tolerance policy for insubordination and
determined he would immediately terminate insubordinate employees. And we have held that “an employer’s failure to follow self-imposed regulations or
procedures is generally insufficient to support a finding of pretext.” Miles, 946 F.3d at 896 (quoting White v.
Columbus Metro. Hous. Auth., 429 F.3d 232, 246 (6th
Cir. 2005)). So too here.
III
At bottom, “an ‘employer may fire an employee for
a good reason, a bad reason, a reason based on erroneous facts, or for no reason at all, as long as its action is

App. 34
not for a discriminatory reason.’ ” Miles, 946 F.3d at
886 (quoting Nix v. WLCY Radio/Rahall Commc’ns,
738 F.2d 1181, 1187 (11th Cir. 1984)). Considering this
evidence together, we find that Pelcha has failed to
create a genuine dispute of material fact as to whether
her termination was motivated by her age. Therefore,
we AFFIRM the district court.

App. 35
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
MELANIE PELCHA,
Plaintiff,

Case No. 1:17–cv–497
v.
JUDGE
MW BANCORP, INC, et al., DOUGLAS R. COLE
Defendants.
OPINION AND ORDER
(Filed Apr. 17, 2020)
This cause is before the Court pursuant to Defendants MW Bancorp Inc.’s and Watch Hill Bank’s motions for summary judgment in this age discrimination
action. (Docs. 46, 47). This Court held oral argument on
those motions on January 28, 2020. From the briefing
and argument, it is clear that the parties have divergent views as to why the Plaintiff, Ms. Pelcha, was terminated from her position at the bank. The question
before the Court, though, is whether those divergent
views give rise to a genuine dispute of material fact
that requires jury resolution. For the reasons discussed more fully below, the Court concludes that they
do not, and thus GRANTS Defendant Watch Hill
Bank’s Motion (Doc. 46), GRANTS IN PART and DENIES IN PART Defendant MW Bancorp’s Motion
(Doc. 47), and DISMISSES WITH PREJUDICE the
claims against both Defendants.

App. 36
FACTUAL BACKGROUND
This case involves a claim by Plaintiff Melanie
Pelcha (“Pelcha”) against her former employer, Watch
Hill Bank (“Watch Hill”), and its holding company, MW
Bancorp Inc. (“MW Bancorp”), pursuant to the Age Discrimination in Employment Act (“ADEA”). Although
there are several aspects to Pelcha’s claim, all of them
stem from her employment with Watch Hill. Pelcha
began working at Watch Hill in August 2005 as a teller
at the Mount Washington branch (Dep. of Melanie
Pelcha (“Pelcha Dep.”), 20–22, Doc. 46-2, #524–251; Pl.’s
Mem. in Opp’n to Watch Hill’s Mot. for Summ. J. (“Pl.’s
Opp’n to WHB”), Doc. 50, #8322). Pelcha was an at-will
employee, meaning she did not work pursuant to a contract and could be terminated at any time and for any
reason, but not of course for an impermissible discriminatory reason. (Pelcha Dep. at 22, #525). Although she
began as a teller, she held several different job titles
during her eleven-year tenure with Watch Hill. (Pelcha
1

Pin citations are to the corresponding PageID number.
The Court cannot rely on the Proposed Undisputed Statement of Facts, which Defendants properly filed as attachments
to their motions (see Docs. 46-1, 47-1), because Pelcha did not respond to these statements pursuant to the Local Rules or Judge
Black’s standing order. (At the time Pelcha filed her opposition to
the motion for summary judgment, this matter was assigned to
Judge Black.) Instead, Pelcha stated that she “is unwilling to
concede that any of [those] ‘facts’ are true facts; or even if they
are, they may have been taken out of context.” (Pl.’s Opp’n to
WHB at n.1, #832). Both parties did, however, attach multiple
deposition excerpts to their briefing. For clarity, to the extent the
facts are derived from those documents, they will be referred to
by deponent name and PageID, not document number.
2

App. 37
Dep. at 22–23, #525). She described herself “as an
above-average worker with good reviews and lack of
prior discipline.” (Pl.’s Resp. to Interrog. No. 12, Doc.
46-6, #594). Pelcha worked under several different
managers during her years of employment. (Pelcha
Dep. at 21, #525). Most recently, before the events at
issue here, she had reported to Janet Schneider, Watch
Hill’s former Senior Vice President of Deposit Operations. (Pl.’s Opp’n to WHB at #832).
A. Brenda Sonderman Takes Over as Pelcha’s
Supervisor.
Pelcha’s reporting relationship changed in May of
2016. At that time, Brenda Sonderman (“Sonderman”)
replaced Schneider as Pelcha’s supervisor. (Id. at #833;
Pelcha Dep. at 25–28, 67–69, #526, 532). Pelcha and
Sonderman did not get along. (Pelcha Dep. at 21, #525).
Pelcha immediately had reservations about Sonderman as a supervisor. For example, she questioned
Sonderman’s knowledge of banking systems. (Id. at
48–49, #528). Pelcha also questioned Sonderman’s
qualifications to be manager (particularly in light of
the fact that Pelcha had worked at Watch Hill longer),
though Pelcha says she does not believe she was
wrongfully passed over for the manager position. (Id.
at 47–49, #528).
Possibly her most significant reservation, though,
was that Sonderman exercised “more authority” than
previous managers. (Id. at 47, #528). Pelcha particularly disliked Sonderman’s policy requiring her direct

App. 38
reports to submit a written request seeking permission
to take time off. (Id. at 27, 66–68, #526, 532). In the
past, under Schneider, employees would just send an
email request. (Id. at 69, #532). This new policy required employees under Sonderman’s supervision to
request leave for “vacation, sick leave, or even partial
day absences for doctor’s visits and other personal appointments.” (Pl.’s Opp’n to WHB at #834). All requests
had to be submitted in writing “by mid-month of the
requested time off ’ (i.e. the middle of the month prior
to the month in which leave was requested) so each request could “be taken into consideration when the
schedule is originated.” (Sonderman Dep. Ex. 4, #538).
The articulated purpose of this written leave request
form was so that Sonderman could effectively schedule
employees. (Sonderman Dep. at 161, #909). Sonderman
instituted this policy on or about May 19, 2016, and
notified her employees via email. (Id. at 163, #910;
Pelcha Dep. at 66–68, #532).
Pelcha was undoubtedly aware of this policy at
the time the facts relevant here occurred. This is so
because, prior to that time, she had retroactively
abided by the policy once before. After Pelcha took a
pre-scheduled vacation in early June 2016, roughly a
month after Sonderman began her role as supervisor,
the form became an issue. Sonderman knew Pelcha “always took this time in June,” but requested that Pelcha
nonetheless complete a retroactive leave form upon
her return. (Sonderman Dep. at 162, #910; Pelcha Dep.
at 69–70, #532–33). Pelcha did so, which she recalled
as not “being an issue.” (Pelcha Dep. at 70, #533).

App. 39
Then, just a few weeks later, in early-July 2016,
Pelcha planned to take a few hours off work in the middle of the day to take her son to a dentist’s appointment. (Pelcha Dep. at 77, #534). Under Sonderman’s
policy, Pelcha was required to fill out a written request
in advance seeking that time off, even though she was
only planning on missing a few hours of work. (Sonderman Dep. at 163, #910). Pelcha claims that, although
she did not prepare a written request, about a week
prior to the scheduled appointment, she orally sought
Sonderman’s approval for leave, which she maintains
that Sonderman gave. (Pelcha Dep. at 77, #534). For
her part, Sonderman concedes she was aware that
Pelcha was planning to take the time off. (Sonderman
Dep. at 159, #909).
B. Watch Hill Decides To Terminate Pelcha After
A Dispute Relating To Leave She Took In July
2016.
A conflict between Pelcha and Sonderman regarding this July 2016 leave is what ultimately set in motion Pelcha’s termination from Watch Hill. Pelcha,
believing she had Sonderman’s oral approval, “bridled
at the notion of having to fill out a written request as
well and told Ms. Sonderman that she did not intend
to do so.” (Pl.’s Opp’n to WHB at #834).
The day before the dental appointment, July 7,
2016, Pelcha told Sonderman that she spoke with Joe
Vortkamp, a Watch Hill vice president, and inquired
whether she was required to follow Sonderman’s leave

App. 40
policy. (Sonderman Dep. at 154–55, #543). Instead of
answering, Vortkamp instructed Pelcha to check the
employee handbook. (Pl.’s Opp’n to WHB at #834). Pelcha did so and concluded that she was not required to
follow Sonderman’s policy. (Id. at #834). She told
Sonderman as much: “I’m not filling [the request] out
because I don’t have to.” (Sonderman Dep. at 154—55,
#543). But despite having disclaimed the intent to do
so, Pelcha did in fact fill out the leave form and placed
it in Sonderman’s office that night before she left work.
(Id. at 153–55, 163–64, #908–10). This day-before written notice, though, was well after the deadline that
Sonderman’s policy imposed.
That same afternoon, Sonderman approached
Vortkamp to complain about his interference with her
oversight of the employees she managed. (Sonderman
Dep. at 156,159, #543, 909) After that discussion, Vortkamp decided to call Gregory Niesen (“Niesen”), thenPresident and CEO of Watch Hill, that same evening.
(Sonderman Dep. at 157–58, #908–09 (recounting her
conversation with Niesen about his call with Vortkamp)). During that call, Vortkamp informed Niesen
about Pelcha’s inquiry and apologized for his potential
overstep of involving himself “in a personnel issue.”
(Sonderman Dep. at 157–58, #543–44). Vortkamp did
not tell Pelcha about this call, but there is no dispute
that Niesen was aware of Pelcha’s actions as a result
of it.
The next day, Friday, July 8, 2016, Niesen, Sonderman, and other senior managers attended a regularlyscheduled meeting of the senior management team at

App. 41
Watch Hill’s Columbia-Tusculum branch. (Sonderman
Dep. at 157–58, #908–09; Niesen Dep. at 22–23, 98,
#565, #865). During that meeting, Niesen specifically
raised Vortkamp’s phone call from the night before and
Pelcha’s refusal to complete the leave request form.
(Sonderman Dep. at 157–58, #908–09; Niesen Dep. at
22–23, #865). Niesen observed that he had zero tolerance for insubordination, and sought additional details. Sonderman clarified various facts about the
incident, specifically that she “had asked [Pelcha] to do
something[,] and she refused.” (Sonderman Dep. at
158, #909; Niesen Dep. at 61, #564). Niesen reiterated
his zero-tolerance policy and informed those present at
the meeting that he intended to terminate Pelcha’s employment. (Niesen Dep. at 100–04, #869–70). No one at
the meeting indicated disagreement with that course
of action. (Id. at 109, #871). Niesen also asked Sonderman to provide him a written record of the events involving Pelcha. (Id.).
After the meeting, Niesen informally consulted
with his former boss Dave Tedtman3 who convinced
Niesen to meet with Pelcha “to hold sort of an official
meeting with [her] to listen to her side of the story regarding Brenda Sonderman’s issues related to her
employment.” (Niesen Dep. at 145–46, #878). So, the
following Monday, July 11, 2016, Niesen and another
Watch Hill vice president met with Pelcha at the
Mount Washington branch to discuss the issue and get
3

According to Niesen, Tedtman was, at the time, also on the
board of directors for both Watch Hill Bank and MW Bancorp.
(See Niesen Dep. at 145, #569).

App. 42
her side of the story. (Id. at 144–45, #878; Pelcha Dep.
at 57, #529). Sonderman was out of the office that day,
and so did not attend. (Sonderman Dep. at 166, #911).
Indeed, she states she was unaware that a meeting
was going to occur that day, and was upset that it had
occurred in her absence. (Sonderman Dep. at 170–71,
#912)
According to Niesen, at the close of that meeting,
he instructed Pelcha to meet with Sonderman the first
thing the following morning (i.e., July 12th). (Id. at
171–72, 257–58, #550–51, 912; Niesen Dep. at 152–53,
#571). Pelcha did not recall whether or not she was instructed to do this. (Pelcha Dep. at 104, #863). Sonderman, who learned of this during a call with Niesen the
morning of July 12th, said she understood Niesen’s instruction to Pelcha to mean that “[Pelcha] would need
to initiate” the July 12th meeting. (Sonderman Dep. at
258, #551). Niesen later documented his July 11th
meeting with Pelcha in a memorandum to his files.
(Niesen Dep. at 150, #570; Niesen Dep. at Ex. 7, Doc.
50-8, #932–33).
C. Watch Hill Terminates Pelcha’s Employment
On July 12, 2016.
Contrary to Niesen’s instructions, on July 12, 2016,
Pelcha did not immediately request a meeting with
Sonderman. (Sonderman Dep. at 171, #912; Niesen
Dep. at 126–27, #567). That is, although Pelcha was at
work in the morning on July 12, 2016, she did not
come to meet with Sonderman. Niesen spoke with

App. 43
Sonderman at about 8:00 a.m. that morning. There is
some dispute as to what transpired during that call.
Niesen claims that Sonderman told him that, not only
had Pelcha not requested a meeting, but that she overheard Pelcha speaking negatively of Sonderman and
other bank personnel. (Niesen Dep. at 123, #875).
Sonderman’s account does not include any reference to
Pelcha making such statements. Rather, she says
that she told Niesen that she was “very disturbed” that
Niesen would “come to my office, have a meeting with
one of my staff members without me present.” (Sonderman Dep. at 170–72, #912). She says that Niesen informed her that Pelcha was being terminated that day,
but also said that, if Pelcha came to her and worked
things out, that may change. (Id. at 172).
It is undisputed that, shortly after this call,
Sonderman sent Niesen an email that detailed the
facts surrounding Pelcha’s alleged insubordination, as
Niesen had requested the previous Friday. (Niesen
Dep. at 128, 155, #567, 571; Sonderman Dep. at 260,
#551; Sonderman Dep. at Ex. 6, #561–62). In the email,
Sonderman opens by requesting Niesen to “review
my recommendation for the immediate termination of
Melanie Pelcha due to insubordination.” (Sonderman
Dep. at Ex. 6, #930–31). She then provides details
regarding multiple instances of “insubordination,”
“negative work environment,” and “failure to complete
assigned task.” (Id.). There is some question as to
whether Sonderman herself was recommending Pelcha’s
termination, or rather simply parroting back the recommendation that she knew Niesen wanted in writing.

App. 44
(Sonderman Dep. at 194, 284, #1127, 1134). There is no
dispute, though, that Sonderman believes her factual
descriptions of the various incidents is accurate. (Id. at
284, #1134 (“Right, right. I was – my supporting facts
are my correct version.”)).
Niesen and Sonderman talked again later that
day, and Sonderman confirmed that Pelcha still had
not come to meet with her. At approximately 5:10 p.m.,
Niesen came to the Mount Washington branch to meet
with Pelcha and Sonderman. Niesen informed Pelcha
that he was terminating her employment. (Niesen Dep.
at 169–70, #575). Reading from Sonderman’s email,
Niesen cited Pelcha’s insubordination as the basis for
her termination. (Id. at 169–71, #575). Sonderman said
nothing during the meeting. (Pelcha Dep. at 55–56,
#529). Niesen did offer Pelcha a severance package
(she declined), but he gave her no other reason for the
employment decision and informed her that the termination was effective immediately. (Niesen Dep. at 169–
71, #575).
Pelcha’s job responsibilities were ultimately reallocated among several employees at Watch Hill, including Lindsay Crothers (deposit operations) and
Rebecca Firestone (teller-related duties). (Dep. of Lindsay Crothers (“Crothers Dep.”), at 26–28, #924; Sonderman Dep. at 236, 272–77, #553–54, #920). Sonderman
took over Pelcha’s regulatory and compliance tasks.
(Sonderman Dep. at 272–77, #553–54.). Watch Hill
made several hires, including several collegiate summer interns, and a part-time employee, Sandy Andrews. (Id. at 254–55, #550).

App. 45
E. Pelcha Asserts Age Discrimination.
After her termination, Pelcha sued, asserting that
she was terminated due to her age. (See Second Am.
Compl. (“SAC”), Doc. 41, ¶¶ 17–27, #476–77). While
she advances several attendant claims (discussed below), her core complaint is alleged age discrimination.
In support of that allegation, Pelcha notes that she
was 47 years old at the time of her termination. (Id. at
¶ 21). Pelcha further asserts that she felt as though
Sonderman “didn’t favor me, that there were other
younger employees that she seemed to favor more
than me[,]” including “Lindsay Crothers and Rebecca
Firestone.” (Pelcha Dep. at 28, #526). When asked at
her deposition what favoritism Sonderman allegedly
showed to Pelcha’s younger co-workers, Pelcha indicated she was forced to fill out leave forms, while Lindsay Crothers was not. (Id. at 30–31, #527). Beyond this
perceived animosity and the filling-out-the-form issue,
Pelcha could not recall any other examples of Sonderman’s alleged age-related bias towards her. (Id. at 33).
Sonderman, however, recalled at her deposition
several instances when Niesen allegedly made what
Sonderman claims were ageist comments about another employee—Becky Roush, a bank teller who was
in her eighties. (Sonderman Dep. at 60, #542). Pelcha
elicited testimony from Sonderman about Niesen’s
statements, and she points to these statements as support for her claim:
Q. Do you ever recall [Niesen] using the expression as it pertains to Becky Roush,

App. 46
that she had reached her expiration date
or her shelf life?
A.

Yes.

Q. Exactly what – – what was the context of
that?
A. I don’t recall; just insinuating that she
was old.
Q. Do you recall [Niesen] counseling either
you or [Schneider], if you remember, to reduce [Roush’s] hours to the point where
she ultimately would quit?
A.

Yes.

Q. And what was the context of that?
A.

Just exactly what you just said. Just
[Niesen’s] idea when he wanted somebody out was preferably to do whatever
he thought would make them voluntarily
leave. And in [Roush’s] case it was to reduce the hours. In [Crothers’] case it was
reduce her pay by $10,000 so that she
would resign.

(Sonderman Dep. at 188–91, 230–31, #916, 919).
Pelcha also points to other, more general ageist
comments Niesen allegedly made. (Crothers Dep. at
72–73, #927). But neither Sonderman nor Pelcha identify any instance when Niesen made ageist comments
to or about Pelcha, either in connection with her termination or regarding her employment more generally.
(Sonderman Dep. at 262, #522).

App. 47
PENDING MOTIONS
Following her termination, Pelcha filed an age discrimination claim with the Equal Employment Opportunity Commission (“EEOC”) on or about November
30, 2016. (SAC at ¶ 16, #475). The EEOC issued her a
Notice of Suit Rights on or about May 1, 2017. (Id.).
Pelcha sued Watch Hill and MW Bancorp on July 21,
2017. (See Compl., Doc. 1). She subsequently amended
her complaint twice, but maintains that Watch Hill:
(1) violated the ADEA by terminating her employment;
(2) violated Ohio’s ADEA state law corollary, Ohio Revised Code § 4112, by doing the same; and that MW
Bancorp (3) violated her shareholder rights pursuant
to Ohio Revised Code § 1701, et seq. (SAC at ¶¶ 17–34,
#476–78). Pelcha also asserts that MW Bancorp and
Watch Hill were her joint employer, or alternatively,
are “a single employer or single integrated enterprise,”
enabling her to hold MW Bancorp potentially liable for
Watch Hill’s alleged age discrimination. (Id. at ¶ 15,
#476).
Watch Hill and MW Bancorp subsequently filed
for summary judgment.4 After the case was reassigned
to the undersigned judge, the Sixth Circuit issued its
decision in Miles v. South Central Human Resource
Agency, Inc., 946 F.3d 883 (6th Cir. 2020). As Miles was
the Sixth Circuit’s most recent pronouncement on the
framework for assessing age discrimination claims, the

4

Watch Hill and MW Bancorp joined each other’s Motions,
Replies, and Supplemental Memoranda.

App. 48
Court requested additional briefing from the parties to
address the case. (See Docs. 58, 59).
A. Watch Hill’s Motion for Summary Judgment.
In its Motion for Summary Judgment (Doc. 46),
Watch Hill argues that Pelcha’s claims fail as a matter
of law because she cannot establish a prima facie case
of age discrimination, either by direct evidence or by
circumstantial evidence. As to the former, Watch Hill
asserts that there is no record evidence that shows,
without making some inference as to the meaning of
that evidence, that age was the but-for cause of Pelcha’s
termination. (Id. at #511–12). And as for the latter,
Watch Hill argues Pelcha cannot demonstrate that she
was either replaced by a younger employee or that she
suffered disparate treatment because of her age, and
thus cannot make out a prima facie circumstantial
evidence claim. (Id. at #512–15). Separately, Watch Hill
contends that even if Pelcha could establish a prima
facie case, Watch Hill had a legitimate, nondiscriminatory reason for terminating her employment, and Pelcha
has failed to create a genuine dispute as to whether the
proffered reason was pretextual (Id. at #515–18).
Pelcha counters first by asserting there is sufficient evidence of direct age discrimination—namely
Niesen’s ageist comments. (Pl.’s Opp’n to WHB at
#841–42). In the alternative, she claims that there is
sufficient circumstantial evidence, based on Niesen’s
comments and the fact that she was “treated differently and more severely than younger employees.” (Id.

App. 49
at #847). She also argues that there was no legitimate
reason for her termination, and that the reason her
employer offers—insubordination—was pretextual (Id.
at #851–56).
B. MW Bancorp’s Motion for Summary Judgment.
In its Motion for Summary Judgment (Doc. 47),
MW Bancorp argues that Pelcha’s claim against it fails
as a matter of law because it is neither a single employer, nor a joint employer with Watch Hill, for purposes of ADEA liability. Further, MW Bancorp asserts
that Pelcha’s shareholder claim, asserting that she is
entitled to information about Watch Hill because she
is shareholder of MW Bancorp, fails because Pelcha is
not a shareholder of Watch Hill and further that MW
Bancorp is not subject to Ohio’s shareholder statutes.
In response, Pelcha asserts that MW Bancorp’s legal status as a non-Ohio corporation is inconsequential. (Pl.’s Resp. in Opp’n to MW Bancorp’s Mot. For
Summ. J. (“Pl.’s Opp’n to MW”), Doc. 51, #1007–09).
This is because, in the context of its joint employer or
single employer relationship with Watch Hill, there is
sufficient integration among the two entities to make
them a “single employer.” (Id. at #1010–14). Therefore,
she asserts, because Watch Hill is incorporated in Ohio
and subject to its laws as a joint employer, ipso facto
MW Bancorp is also subject to Ohio shareholder laws.
(Id. at 1014–18).

App. 50
DISCUSSION
A. Standard of Review On Summary Judgment.
Summary judgment is proper “if the movant
shows that there is no genuine dispute as to any material fact and the movant is entitled to judgment as a
matter of law.” Fed. R. Civ. P. 56(a). The burden is on
the moving party to conclusively show no genuine issue of material fact exists. Celotex Corp. v. Catrett, 477
U.S. 317, 323 (1986); Lansing Dairy, Inc. v. Espy, 39
F.3d 1339, 1347 (6th Cir. 1994). Once the movant presents evidence to meet its burden, the nonmoving
party may not rest on its pleadings, but must come forward with significant probative evidence to support its
claim. Celotex, 477 U.S. at 324; Lansing Dairy, 39 F.3d
at 1347.
This Court does not have the responsibility to sua
sponte search the record for genuine issues of material
fact. Betkerur v. Aultman Hosp. Ass’n, 78 F.3d 1079,
1087 (6th Cir. 1996); Guarino v. Brookfield Twp. Trs.,
980 F.2d 399, 404–06 (6th Cir. 1992). The burden falls
upon the nonmoving party to “designate specific facts
or evidence in dispute.” Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 249–50 (1986). If the nonmoving party
fails to make the necessary showing for an element
upon which it has the burden of proof, the moving
party is entitled to summary judgment. Celotex, 477
U.S. at 323.
Whether summary judgment is appropriate depends upon “whether the evidence presents a sufficient disagreement to require submission to a jury or

App. 51
whether it is so one-sided that one party must prevail
as a matter of law.” Amway Distribs. Benefits Ass’n v.
Northfield Ins. Co., 323 F.3d 386, 390 (6th Cir. 2003)
(quoting Anderson, 477 U.S. at 251–52). In sum, Pelcha,
at this stage, must present some “sufficient disagreement” which would necessitate submission to a jury.
See Moore v. Phillip Morris Cos., Inc., 8 F.3d 335, 340
(6th Cir. 1993) (quoting Anderson, 477 U.S. at 251–52).
In making that determination, though, this Court
must view the evidence in the light most favorable to
the nonmoving party, here Pelcha. See Matsushita Elec.
Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 587
(1986); Cox v. Ky. Dep’t of Transp., 53 F.3d 146, 150 (6th
Cir. 1995) (“In arriving at a resolution, the court must
afford all reasonable inferences, and construe the evidence in the light most favorable to the nonmoving
party.”).
B. Watch Hill Bank Is Entitled To Summary
Judgment Because Pelcha Cannot Establish
A Direct Or Circumstantial Case Of Age Discrimination.
“[A]n employer may fire an employee for a good
reason, a bad reason, a reason based on erroneous
facts, or for no reason at all, as long as its action is not
for a discriminatory reason.” Miles v. S. Cent. Human
Res. Agency, Inc., 946 F.3d 883, 886 (6th Cir. 2020) (internal quotation marks and citation omitted). One impermissible reason to terminate an employee, though,
is because of the employee’s age—at least if the employee is over forty—as such age discrimination would

App. 52
violate both the ADEA, 29 U.S.C. § 621, et seq., and
Ohio’s state law corollary, Revised Code § 4112, et seq.
That is what Pelcha claims happened here. (SAC at
¶¶ 17–27, #476–78).
Both of these statutes make it unlawful for an
employer to discharge an employee “because of,”
among other reasons, an individual’s age. 29 U.S.C.
§ 623(a)(1); Ohio Rev. Code § 4112.02(A). Due to the
similarity of the two statutes, when a plaintiff advances claims under both the ADEA and Ohio law in
federal court, the two claims are analyzed together using the same federal standard. See Blizzard v. Marion
Tech. Coll., 698 F.3d 275, 283 (6th Cir. 2012) (citing
Wharton v. Gorman–Rupp Co., 309 F. App’x 990, 995
(6th Cir. 2009)); see also Ercegovich v. Goodyear Tire &
Rubber Co., 154 F.3d 344, 357 (6th Cir. 1998) (“Under
Ohio law, the elements and burden of proof in a state
age-discrimination claim parallel the ADEA analysis.”).
To prove unlawful treatment under the ADEA, a
plaintiff must offer evidence that the employer’s action
would not have occurred but-for the employee’s age.
Blizzard, 698 F.3d at 283 (citing Gross v. FBL Fin.
Servs., Inc., 557 U.S. 167, 177 (2009)). A plaintiff must
do more than “show that age was a motivating factor
in the adverse action.” Scheick, 766 F.3d at 529 (citing
Gross, 557 U.S. at 177–78). “[R]ather, the ADEA’s ‘because of ’ language requires a plaintiff ‘prove by a preponderance of the evidence (which may be direct or
circumstantial) that age was the “but for” cause of the
challenged employer decision.’ ” Id. (quoting Gross, 557

App. 53
U.S. at 177–78). Pelcha can seek to meet this standard
by “either direct or circumstantial evidence,” but
whichever path she chooses, the evidence she puts forward must create a triable fact as to whether her age
was the “but-for” cause of her termination. Blizzard,
698 F.3d at 283 (quotation omitted) (citing Geiger v.
Tower Auto., 579 F.3d 614, 620 (6th Cir. 2009)); see also
Miles, 946 F.3d at 887.
In that regard, to some extent, the labels themselves—direct and circumstantial—can be “unhelpful
and beside the point in cases like this[.]” Hannon v.
Louisiana-Pacific Corp., 784 F. App’x 444, 449 (6th Cir.
2019); accord Ortiz v. Werner Enters., Inc., 834 F.3d 760,
765 (7th Cir. 2014) (Easterbrook, J.) (holding “that district courts must stop separating ‘direct’ from ‘indirect’
evidence and proceeding if they were subject to different legal standards.”).
“The labels we might attach to evidence—‘direct’
or ‘indirect’—do not matter. Evidence counts as long as
it is relevant to the purported reasonable jury’s inquiry.” Gohl v. Livonia Pub. Schs. Sch. Dist., 836 F.3d
672, 683 (6th Cir. 2016) (Sutton, J.) (citing Ortiz, 834
F.3d at 765)). That being said, “direct” evidence is
“smoking gun” evidence “that explains itself.” Id. As
such, it offers one principal benefit. If present, an employee avoids the burden of presenting evidence of a
prima facie case under McDonnell Douglas. See Trans
World Airlines, Inc. v. Thurston, 469 U.S. 111, 121
(1985) (“[T]he McDonnell Douglas test is inapplicable
where the plaintiff presents direct evidence of discrimination.”); Rowan v. Lockheed Martin Energy Sys., Inc.,

App. 54
360 F.3d 544, 548 (6th Cir. 2004) (“If the plaintiffs can
establish direct evidence of discrimination, then they
need not go through the McDonnell Douglas burdenshifting analysis.”); Logan v. Denny’s, Inc., 259 F.3d
558, 567 (6th Cir. 2001) (“The direct evidence and the
circumstantial evidence paths are mutually exclusive;
a plaintiff need only prove one or the other, not both.”
(quotation omitted)).
Direct evidence is rare. See Kline v. Tenn. Valley
Auth., 128 F.3d 337, 348 (6th Cir. 1997) (“It is the rare
situation when direct evidence of discrimination is
readily available. . . .”). “[T]hus victims of employment
discrimination are permitted to establish their cases
through inferential and circumstantial proof.” Id. In
such cases, an employee proceeds under the traditional
McDonnell Douglas burden-shifting framework, which
requires the employee to put forward all evidence of
discrimination (even that evidence that was insufficient “direct” evidence), as an alternative way to
demonstrate discrimination. See id. (“This is the reason for the McDonnell DouglasBurdine burden of proof
mechanism. . . .); see also id. (“As Justice O’Connor
noted, ‘the entire purpose of the McDonnell Douglas
prima facie case is to compensate for the fact that direct evidence of intentional discrimination is hard to
come by.’ ” (quoting Price Waterhouse v. Hopkins, 490
U.S. 228, 271 (1989) (O’Connor, J., concurring), overruled as stated in Comcast Corp. v. Nat’l Ass’n of African American-Owned Media, No. 18-1171, ___ S. Ct.
___, 2020 WL 1325816, at *6 (2020) (discussing Title
VII) and Gross, 557 U.S. at 173–75 (discussing the

App. 55
ADEA)). Here, Pelcha’s briefing argues that she has
sufficient evidence to get to a jury, both under the direct evidence framework, or alternatively, the circumstantial evidence approach. The Court disagrees as to
both.
1. Pelcha Does Not Have Evidence Sufficient
To Establish Age Discrimination Without
Inference.
Under the first approach, Pelcha must have direct
evidence that her termination would not have occurred, but-for “intentional discrimination.” Geiger,
579 F.3d at 620 (quoting Reeves v. Sanderson Plumbing
Prods., Inc., 530 U.S. 133, 153 (2000)). This means evidence that, if believed, “requires the conclusion that
age was the but-for cause of the employment decision.”
Scheick, 766 F.3d at 529. Such evidence would prove
“the existence of a fact without requiring any inferences.” Rowan, 360 F.3d at 548. As Gross overruled any
burden-shifting approach when an employee relies on
this type of evidence, the evidence must show the ultimate issue: “the plaintiff has proven ‘by a preponderance of the evidence . . . that age was the “but for”
cause of the challenged employer decision.’ ” Geiger,
579 F.3d at 621 (quoting Gross, 557 U.S. at 177). The
evidence that Pelcha offers, though, is insufficient to
establish, without inference, that age discrimination
was the “but-for” cause of her termination.
“ ‘Only the most blatant remarks, whose intent
could be nothing other than to discriminate on the

App. 56
basis of age,’ satisfy this criteria.” Scott v. Potter, 182 F.
App’x 521, 526 (6th Cir. 2006) (quoting Carter v. City of
Miami, 870 F.2d 578, 582 (11th Cir. 1989)); see also id.
at 525–26 (citing Erickson v. Farmland Indus., Inc.,
271 F.3d 718, 724 (8th Cir. 2001) (stating direct evidence is “evidence of conduct or statements . . . directly
manifesting a discriminatory attitude, of a sufficient
quantum and gravity that would allow the factfinder
to conclude that attitude more likely than not was the
motivating factor in the employment decision”)).
Sufficient evidence of discrimination to establish
this but-for causation differs from case-to-case, but often, it takes the form of oral or written statements. To
be sufficiently demonstrative of age discrimination,
oral or written statements must be: (1) made by a decision-maker or by an agent acting within the scope of
his or her employment; (2) related to the decisionmaking (termination) process; (3) more than merely
“vague, ambiguous, or isolated”; and (4) made proximate in time to the act of termination. Hannon, 784 F.
App’x at 448 (quoting Diebel v. L & H. Res., LLC, 492
F. App’x 523, 527 (6th Cir. 2012)); see also Griffin v.
Finkbeiner, 689 F.3d 584, 595 (6th Cir. 2012) (analyzing comments in a racial discrimination case and
noting to be direct evidence of racial animus, the comments must “have some connection to the decision to
terminate” the employee and that they must “specifically mention” the employee).
While these factors are useful in describing the
framework, the framework itself does little to clarify
what type of evidence is sufficient, without inference,

App. 57
to substantiate a claim. Often, the answer to that question is a matter of phrasing and semantics. Take, for
example, Scott, where an employee’s supervisor purportedly said to him “ ‘[w]hy don’t you retire and make
everybody happy.’ ” Scott, 182 F. App’x at 526. The Sixth
Circuit said that was not enough, on its own, to constitute traditional direct evidence of age discrimination.
Instead, the statement “must rest upon the notion that
the term ‘retire’ itself is somehow directly references or
necessarily means a person’s age.” Id.
In its analysis, the court noted “it is true that
younger workers typically do not ‘retire’ from an employer, while older workers typically do.” Id. But, “it is
this ‘typicality’ rather than ‘identity’ which requires
that an inference be drawn before ‘Why don’t you retire’ can become evidence of a discriminatory animus
like ‘Why don’t you retire; you’re too old.’ ” Id. The court
also noted, however, that certain statements, if used
once, could be “facially innocuous,” but if used routinely
could be direct evidence of age discrimination. Scott,
182 F. App’x at 526 (noting the word “experienced,” if
used routinely as code to refer to an older employee
could be direct evidence if it was used in a statement
like “Let’s fire him; he’s too experienced.”). In other
words, if an employer adopts a “code,” where it replaces
clearly discriminatory language (“old”) with a different
phrase (“experienced”) merely as a subterfuge to gloss
over discrimination, that won’t work. But, as Scott
shows, courts will not lightly reach that result.
Consider, in contrast to Scott, the statements
made in Scheick. There, a high school principal filed an

App. 58
ADEA claim against the school district after his contract was not renewed. Scheick, 766 F.3d at 526–28. In
setting forth his evidence, the principal referenced
three comments that he claimed were sufficient to
demonstrate discrimination. First, one made at the beginning of his performance review, in which he was told
“The Board wants you to retire.” Id. at 530. Second, the
same board member told him “they just want somebody younger.” Id. Third, a few weeks later the board
member again reiterated that “they wanted someone
younger.” Id. Analyzing these three comments, the
court determined the first did not constitute direct evidence of discrimination because the first comment
“would require an inference to conclude that retirement was a proxy for age.” Id. However, the other two
comments cleared the bar, as they unambiguously indicated “that age was the but-for cause of the decision
not to renew [the principal’s] contract.” Scheick, 766
F.3d at 531. That is, the latter two statements were “direct references to age,” and even though the term
“they” implied the Board (thereby arguably necessitating an inference, thus taking it out of the realm of direct evidence), in context, “they” could not have been a
reference “to anyone other than the Board.” Id. Thus, if
these two statements were believed, no inference was
necessary that the Principal was being terminated due
to concerns about his age.
Against this backdrop, Pelcha argues Niesen made
several statements that do not require any inference
she was terminated because of her age:

App. 59
(1) Mr. Niesen referred to another bank employee (Roush, who was in her eighties)
as “too old,” and having a “limited shelf
life,” and having reached or passed her
“expiration date.”
(2) Mr. Niesen, on several occasions, expressed a desire to hire younger bank tellers because they were tech savvy, could
attract younger customers, and by employing them, their parents would utilize
the bank’s services.
(3) Mr. Niesen instructed a manager to reduce an older employee’s hours (the same
employee referred to above) until she resigned.
(Pl.’s Opp’n to WHB at #842).
Under the framework reiterated in Hannon,
viewed through the lens of Scott and Scheick, this
Court must determine whether Nielson’s comments
were: (1) made by a decision-maker, (2) related to the
decision-making process, (3) more than merely “vague,
ambiguous, or isolated,” and (4) made proximate in
time to the act of termination. Hannon, 784 F. App’x at
448 (citation omitted).
The first criteria is clearly established—it is uncontroverted that Niesen was Watch Hill’s decisionmaker as its CEO and President. But on the remaining
fronts, Pelcha’s evidence falls short. For example, as
to causation, the Court cannot draw an inferencefree conclusion that these comments were the “butfor” cause of Pelcha’s termination. Niesen’s comments

App. 60
concerned another Watch Hill employee, Becky Roush.
Thus, for Pelcha to claim that those same sentiments applied to her would require the inference that
Neilson’s age-related concerns about Roush also applied to Pelcha.
Moreover, the comments are not directly ageist, or
at least not unambiguously so. The evidence is that
Niesen said that Roush had passed “her expiration
date” and that she had “limited shelf life.” Admittedly,
these could be references to Roush’s age, but it would
require an inference to get there. The term “expiration
date” usually brings to mind something that is no
longer effective or has become stale. “Shelf-life” usually
indicates the length of time that something remains
useful or fit for use. The words typically apply to items
such as foodstuffs or medicines. While both of these
concepts undoubtedly have a durational component,
they are distinct from “age.”
Fresh foods, for example, often have a short shelf
life; their consumable life expiring within just a few
days or weeks. Canned goods, by contrast, can have an
extremely long shelf life, lasting for years before going
bad. It is true that, as a general rule, the newer (i.e.
younger) the item, the less likely that it has expired or
reached the end of its shelf life. But “expire” and “shelf
life” are durational measures. While perhaps correlated with age, they are not synonymous with it. In
that regard, they are not unlike “length of tenure,”
another durational phrase that also “may correlate
empirically with age, [but] is not synonymous” with
it, and thus does not constitute direct evidence of

App. 61
discrimination. See Scott, 182 F. App’x at 526 (citing
Erickson, 271 F. 3d at 725).
Nor did Pelcha assert that Neilson routinely used
the terms “expire” or “shelf life” as a proxy for “age.”
See id. Moreover, Niesen’s comments did not tie concerns about “expiration” or “shelf life” to any termination decision (Watch Hill did not terminate Roush), let
alone to Pelcha’s. He could have said, for example,
“Let’s fire her, she’s about to expire.” If he had, perhaps
that would be smoking-gun evidence of discrimination,
but that was not the case here.
Separately, Pelcha also asserts that Niesen said
Roush was “ ‘too old.’ ” (Pl.’s Opp’n to WHB at #842).
While that phrase may well constitute direct evidence
(and certainly would as to Roush), the problem for
Pelcha is that the quoted phrase does not appear anywhere in the record evidence she offers in support of
her motion. Instead, it appears that she may have used
the quotation marks around that phrase in her briefing, not to assert that Niesen in fact said those words,
but rather as a form of emphasizing that phrase in the
sentence in which she employed it. (Pl.’s Opp’n to WHB
at #842). The closest citation to that phrase is Sonderman, who indicated Niesen’s statements were “just insinuating that [Roush] was old.” (Sonderman Dep. at
230, #919). In any event, absent evidentiary support
that Niesen actually said that phrase, she cannot rely
on it in her briefing to satisfy her burden at the summary judgment stage.

App. 62
The second category of alleged statements—those
in which Niesen allegedly announced a desire to hire
younger tellers to attract more business—likewise do
not constitute “direct evidence” of age discrimination.
The Sixth Circuit has noted that an employer’s statement that the employer likes younger employees for
some reason is not the same as asserting that a particular older worker was or should be fired because of age.
Miles, 946 F.3d at 896 (“Even if [the employer] wanted
to attract young people, that says nothing about terminating older employees.” (emphasis in original)). And,
even if wanting younger workers for new positions may
reflect ageist animus, an inference is still necessary to
tie general ageist animus to a particular employment
decision, meaning that statement fails as direct evidence.
Of course, if Niesen had said, for example, “We really need to replace our older tellers with younger
ones,” or if he had said, “I want to hire younger tellers
and I want to fire the older ones,” that may be a different story. But merely expressing that one likes younger
employees, does not, without some additional inference, mean an employer is intent on terminating older
employees. The fact that an inference is necessary
takes this out of the realm of direct evidence.
Last, none of Niesen’s allegedly ageist comments
were made to Pelcha directly, about Pelcha individually, or made in connection, temporally or tangentially,
with her termination. The only reasons Niesen provided to Pelcha for her termination were those instances set forth in Sonderman’s email.

App. 63
Taken together or separately, Pelcha cannot make
out a direct evidence claim based on Niesen’s comments alone. Certainly age-based animus could be inferred from these comments, but that need for that
inference means the comments do not constitute direct
evidence of discrimination.
In arguing for a different result, Pelcha relies on
two cases, neither of which reflect the law in this Circuit. First, she asserts that direct evidence is sufficient
to substantiate a claim for age discrimination if it “requires the conclusion that unlawful discrimination
was at least a motivating factor in the employer’s actions” and once established, “the burden then shifts to
the employer.” (Pl.’s Opp’n to WHB at #841, 843) (emphasis in original). But the motivating factor or mixed
motive standard has been disposed of by the Supreme
Court in the AREA context. See Scheick, 766 F.3d at
530. “Wexler’s [mixed motive] definition does not survive in the AREA context after Gross,” and Pelcha’s reliance on that framework here is misplaced. Id.
Second, she relies on Paz v. Waucanda Healthcare
& Rehabilitation Centre, LLC, 464 F.3d 659, 665–66
(7th Cir. 2006), for the proposition that analysis of allegedly ageist comments should include “how the decision-maker feels about protected employees as a class,
not necessarily about the protected plaintiff employee
in particular.” (Pl.’s Opp’n to WHB at #8435). Paz is
5

Pelcha’s brief labels this case, perhaps inadvertently, as
Sixth Circuit precedent. In fact, Paz is a Seventh Circuit case that
the Sixth Circuit has never cited, and that district courts in this
Circuit have cited only twice.

App. 64
unhelpful in the direct evidence context, however, because there the court said the discriminatory comments could allow a finder of fact “to infer from all the
evidence that Paz was discharged because of her national origin, pregnancy status, or in retaliation for
complaining of discrimination.” Id. at 665 (emphasis
added). It seems that Paz is better understood as a circumstantial evidence case, then, as it is discussing
when a court may “infer” discriminatory animus. In
this Circuit, evidence is “direct evidence” only if it requires no inference to arrive at the conclusion that
there was age discrimination afoot. Accordingly, Pelcha’s arguments based on these cases are unavailing.
2. Pelcha’s Age Discrimination Claim Fails
Under The McDonnell Douglas BurdenShifting Framework Too.
Pelcha separately pursues an alternative pathway
to show impermissible age discrimination, the McDonnell Douglas burden-shifting framework. The difference between the two approaches is not necessarily
that great. “In a broad sense, McDonnell Douglas set
forth an analytical method to examine every intentional
discrimination claim, whether it proceeds through an
indirect method of proof or through direct, circumstantial, or statistical evidence.” Barnes v. GenCorp, Inc.,
896 F.2d 1457, 1463–64 (6th Cir. 1990) (citing McDonell Douglas Corp. v. Green, 411 U.S. 792 (1973)). Despite some ambiguity in the Supreme Court’s decision
in Gross as to the role for McDonnell Douglas (a Title
VII case) in age-discrimination claims, see Geiger, 579

App. 65
F.3d at 622 (citing Gross, 557 U.S. at 175 n.2), the Sixth
Circuit remains committed to the proposition that
ADEA claims proceeding on a theory of circumstantial
evidence still utilize that framework. Id. (“In this circuit, however, while recognizing the differences between Title VII and the ADEA, we have long found the
McDonnell Douglas framework useful in analyzing
[the] circumstantial evidence of ADEA claims.”).
“McDonnell Douglas first requires a plaintiff to establish a prima facie case of discrimination.” Miles, 946
F.3d at 887 (citing McDonnell Douglas, 411 U.S. at
802). If Pelcha can clear the prima-facie-case threshold, the burden shifts to Watch Hill to offer a “legitimate, nondiscriminatory reason” as to why it took the
adverse employment action. Id. at 887 (citation omitted). If Watch Hill can do so, the burden returns to Pelcha to show the proffered reason for her termination
was not the true reason, but instead merely pretext for
age discrimination. See id. “If the plaintiff satisfies this
third step, the factfinder may reasonably infer discrimination.” Id. (citing Moffat v. Wal-Mart Stores, Inc., 624
F. App’x 341, 349 (6th Cir. 2015)). And, at the summary
judgment stage, the question is merely whether there
is at least a genuine dispute at each stage that creates
the need for a jury determination on the ultimate question of discrimination.

App. 66
a. Pelcha Can Establish Her Prima Facie
Case.
To establish a prima facie case under McDonnell
Douglas, an employee must show that: (1) they are a
member of a protected class; (2) they suffered an adverse employment action; (3) they were qualified for
the position; and “ ‘(4) circumstances which support an
inference of discrimination.’ ” Willard v. Huntington
Ford, Inc., 952 F.3d 795, 808 (6th Cir. 2020) (quoting
Blizzard, 698 F.3d at 283); see also Swierkiewicz v.
Sorema NA, 534 U.S. 506, 510 (2002). “The plaintiff ’s
burden to establish a prima facie case is light, one ‘easily met’ and ‘not onerous.’ ” Willard, 952 F.3d at 808
(quoting Provenzano v. LCI Holdings, Inc., 663 F.3d
806, 813 (6th Cir. 2011)).
Perhaps because it is undisputed that Pelcha was
a member of a protected class (she was older than 40),
who suffered an adverse employment action (she was
terminated), the parties focus their briefing and argument on the fourth prong—whether there are circumstances that support an inference of discrimination. To
meet this prong, Pelcha must demonstrate circumstances from which a jury could reasonably infer that
impermissible discrimination was at the root of Watch
Hill’s decision to terminate her employment. Examples
of such evidence could include that an employee was
replaced by someone younger, see Grosjean v. First Energy Corp., 349 F.3d 332, 335–36 (6th Cir. 2003) (discussing the requirements for proving discrimination
by replacement), or that the employer had a practice of
treating younger employees better than older ones. See

App. 67
Aldridge v. City of Memphis, 404 F. App’x 29, 40–41
(6th Cir. 2010) (discussing both direct and circumstantial evidence of ADEA disparate treatment claims). Indeed, there are suggestions in some Sixth Circuit
caselaw that these are the only types of evidence the
count in that regard. See, e.g., Tuttle v. Metropolitan
Govt. of Nashville, 474 F.3d 307, 317 (6th Cir. 2007)
(stating that fourth prong of McDonnell Douglas’s
prima facie case in age discrimination matter requires
showing that plaintiff “was replaced by a younger
worker” or that “similarly situated non-protected employees were treated more favorably”). That is what
Watch Hill argued here. (Defs.’ Reply, Doc. 54, #1109).
But other Sixth Circuit cases, even when stating the
fourth prong in terms that suggest that only this evidence counts, have in fact considered ageist comments—comments that fall short of constituting direct
evidence—as potential circumstantial evidence of discrimination. See Diebel, 492 F. App’x at 530–31 (noting
a boss’s comments, “even if not direct evidence of discrimination, are circumstantial evidence of age discrimination”). Given that the fourth prong requires
only “circumstances which support an inference of discrimination,” Willard, 952 F.3d at 808, the latter approach seems the appropriate one, and it is the course
the Court follows here. Moreover, Pelcha’s “burden to
establish a prima facie case is light[,]” as the primary
function of this framework is to eliminate “the most
common nondiscriminatory reasons” for Watch Hill’s
decision, “such that the plaintiff is unqualified for
the position or not a member of the protected group.”

App. 68
Willard, 952 F.3d at 808. The purpose is “not to stymie
plaintiffs.” Id. (citations omitted).
Here, Pelcha offers various types of evidence in an
effort to meet this prong. She makes general allegations that younger employees were disciplined differently than she was. (Pl.’s Opp. to WHB at #847–49).
Pelcha also argues that she was replaced by a younger
employee. (Id. at #847). Finally, as noted above, she
also put forth evidence of potentially ageist comments
by Niesen, the ultimate decisionmaker, from which one
could infer discriminatory intent. As the Court finds
that the latter category—Niesen’s comments—are sufficient to raise a plausible inference of discrimination,
the Court need not consider the other evidence that
Pelcha offers.
“In determining whether discriminatory comments are circumstantial evidence of discrimination in
a particular case, we consider factors such as the identity of the speaker, the nature and substance of the
comments, and the temporal proximity of the comments to the challenged decision.” Griffin, 689 F.3d at
595 (analyzing discriminatory comments in the Title
VII context). The third factor, temporal proximity, is
more flexible in the circumstantial evidence realm
than it is in the direct evidence one. See, e.g., Ercegovich, 154 F.3d at 357 (finding a comment made fourteen months prior to termination was relevant).
As discussed above, Niesen was the decisionmaker
at Watch Hill and made comments that could be understood to suggest that he harbored, expressed, and

App. 69
then allegedly acted upon, ageist beliefs about certain
Watch Hill employees. It appears from the record that
such alleged comments began around May 2016,
when Janet Schneider left and Brenda Sonderman
took over managing Pelcha’s branch of Watch Hill. (See
Schneider Dep. at 32–36, #889–90). Pelcha was terminated mid-July 2016. (Pelcha Dep. at 65, #529). Niesen’s
comments, allegedly made roughly two months before
Pelcha’s termination, are sufficiently close in time that
a jury could make an “inference of discrimination.”
As this Court must draw all inferences in Pelcha’s
favor at this stage, Niesen’s comments satisfy the
fourth prong of the prima facie test. As that is the only
prong the defendants challenge, Pelcha satisfies her initial burden in establishing a prima facie case of age
discrimination.
b. Watch Hill Has Offered A Legitimate
Non-Discriminatory Reason for Pelcha’s
Termination.
Just because Pelcha meets her burden at the first
threshold, however, does not mean her claim survives
summary judgment. “A district court may certainly assume that a plaintiff makes out a prima facie case,
move past this analytical step, and conclude that summary judgment should be granted to a defendant” regardless of when “the plaintiff fails to demonstrate
pretext.” Rosenthal v. Faygo Beverages, Inc., 701 F.
App’x 472, 476 (6th Cir. 2017) (citing Frizzell v. Sw. Motor Freight, 154 F.3d 641, 646 (6th Cir. 1998)). Such is

App. 70
the case here. Watch Hill has identified a legitimate
reason to terminate Pelcha’s employment, and Pelcha
has failed to create a genuine dispute as to whether
that reason was pretextual.
Watch Hill claims it terminated Pelcha’s employment because of her insubordination. Insubordination
is a well-settled, long-recognized, legitimate reason for
terminating an employee. See, e.g., Raadschelders v.
Columbus State Comm. Coll., 377 F. Supp. 3d 844, 858
(S.D. Ohio 2019) (“The Sixth Circuit has repeatedly
held that insubordination may constitute a legitimate,
nondiscriminatory reason for adverse action.” (citing
Fullen v. City of Columbus, 514 F. App’x 601, 606 (6th
Cir. 2013) (collecting cases))). Pelcha did not disagree
that this reason satisfies Watch Hill’s burden. (See Pl.’s
Opp’n to WHB at #851 (“Defendant Watch Hill Bank
has met its burden of articulating a legitimate business reason for firing Ms. Pelcha[.]”)). Therefore, Watch
Hill has satisfied its burden of production by providing
a nondiscriminatory reason for its decision to terminate Pelcha’s employment.
c. Pelcha Has Failed To Create A Genuine
Dispute That Watch Hill’s Proffered
Reason Was Pretextual.
The burden now returns to Pelcha who, to survive
summary judgment, must “produce sufficient evidence
from which a jury could reasonably reject [Watch
Hill’s] explanation of why it fired her.” Miles, 946 F.3d
at 888 (quoting Chen v. Dow Chem. Co., 580 F.3d 394,

App. 71
400 (6th Cir. 2009)). “This is a commonsense inquiry:
did the employer fire the employee for the stated reason or not?” Id. (quotation omitted). “And ultimately,
this burden merges with [Pelcha’s] overall burden of
proving discrimination.” Id. (citing Provenzano, 663
F.3d at 812).
Often, a plaintiff will show pretext in one of three
ways: “(1) that the proffered reasons had no basis in
fact; (2) that the proffered reasons did not actually motivate the discharge; or (3) that the reasons were insufficient to motivate the action.” Miles, 946 F.3d at 888
(quoting Chen, 580 F.3d at 400). “But these are not the
only ways that a plaintiff can establish pretext; these
three categories are simply a ‘convenient way of marshaling evidence and focusing it on the ultimate inquiry: did the employer fire the employee for the stated
reason or not?’ ” Id. (quoting Tingle v. Arbors at Hilliard, 692 F.3d 523, 530 (6th Cir. 2012)). Pelcha can certainly provide evidence beyond these three categories.
See id. Regardless of how she marshals her evidence,
though, Pelcha “must articulate some cognizable explanation of how the evidence she has put forth establishes pretext.” Id.
In her briefing, Pelcha primarily asserts versions
of the second and third categories above, that Watch
Hill’s proffered reason did not actually motivate its decision, “or, alternatively,” its reasons were insufficient
to warrant termination. (Pl.’s Opp’n to WHB at #852).
In support of these arguments, Pelcha offers as evidence Watch Hill’s inability “to get its story straight on
the true reason for Ms. Pelcha’s termination” which is

App. 72
“highly suspicious.” (Id. at #852–53). She also recycles
her “direct” evidence, that she suffered from disparate
treatment and that Niesen’s comments about other
employees demonstrate age discrimination against
her. (Id. at #853). Pelcha further asserts what she calls
“me too” evidence—adverse actions taken against
other older employees—as evidence of this pretext. (Id.
at #854–55). Last, she makes a bald assertion that “the
punishment did not fit the crime” and was “objectively
irrational from a business standpoint” because “savvy
and knowledgeable executives like Gregory Niesen
do not make irrational decisions unless there is a
hidden agenda.” (Id. at #855–56). Pelcha’s shotgun approach to arguing pretext requires some unpacking,
but ultimately, her arguments fail to establish a genuine dispute as to whether Watch Hill’s reasons for terminating her employment were pretextual.
i. Watch Hill’s “Shifting” Rationales
Are Not Evidence of Pretext.
Let’s start with her claim that Watch Hill had
“shifting rationales” for her termination. To her credit,
it is “[t]rue, under this circuit’s precedent, an employer’s shifting termination rationales are evidence
that the proffered rationale may not have been the true
motivation for the employer’s actions.” Miles, 946 F.3d
at 890. But providing “additional, non-discriminatory
reasons that do not conflict with the one stated at the
time of discharge does not constitute shifting justifications.” Miles, 946 F.3d at 891 (quotation omitted).

App. 73
Pelcha’s problem here is that she fails to identify
any “shift.” She tries to create one by arguing that “Pelcha’s failure to fill out the form was of little moment
and the real reason [Niesen] wanted her gone was that
she was insubordinate and had ‘work issues.’ ” (Pl.’s
Opp’n to WHB at #852). But the reason Watch Hill
gave her at the time of the adverse action was in fact
insubordination, so this is no shift. Pelcha separately
identifies another justification, which she claims was
part of Niesen’s deposition testimony (but for which
she provides no citation to his transcript), where he allegedly stated that Pelcha was terminated because of
“conduct and performance issues. . . .” She argues this
had nothing to do with her “insubordination, negative
attitude, or failure to complete assignments,” and thus
this is a shifting rationale. (Id.). She also references
Sonderman’s deposition testimony (again, without citation to an actual page to find the purported testimony) for the proposition that Sonderman “soundly
rejected” Niesen’s rationale for terminating Pelcha.
(Id.).
But these allegedly shifting rationales are not
sufficient to give rise to a jury question of pretext.6 All
6

There is also “[n]othing in either the [Federal] Rules or case
law supports an argument that the trial court must conduct its
own probing investigation of the record.” Guarino v. Brookfield
Twp. Trustees, 980 F.2d 399, 405 (6th Cir. 1992). Nobody knows
the record of a case better, perhaps, than the attorneys; “[t]hus,
the free-ranging search for supporting facts is a task for which
attorneys in the case are equipped and for which courts are generally not.” Id. “To try to review the [nearly] complete collection
of exhibits, or to read each line of every page of all submitted depositions . . . represents to courts at both the trial and appellate

App. 74
Pelcha has shown here are, at most, additional, nonconflicting, non-discriminatory reasons for her termination. Even under her version of the facts, Watch
Hill’s rationales have been: (1) failing to fill out a form
in violation of a rule; (2) insubordination and work issues; and (3) conduct and performance issues. To the
extent that these are even different, they are certainly
not in conflict, and thus do “not constitute shifting justifications.” Id.
Separately, Pelcha notes in her brief that Sonderman, who wrote an email “recommending” that she be
terminated (Sonderman Dep. at Ex. 6, #930–31), was
“ordered by Mr. Niesen” to include the recommendation in the email, and that she did not do it of “her own
free will.” (Pl.’s Opp’n to WHB at #837). This likewise
fails to satisfy Pelcha’s burden of showing pretext. Indeed, it is not even clear that Pelcha claims this is evidence of pretext. (She does not include it in the pretext
discussion in her brief, but Watch Hill addresses the
issue in its discussion of pretext.) But, if she does, that
argument fails. Whether Sonderman “recommended”
the termination or not is largely irrelevant. It is undisputed that Niesen was the decisionmaker. And,
whether Sonderman independently would have included a “recommendation” to terminate in her email
or not, it is clear she stands by her factual account of
what transpired, which is what gave rise to the finding
levels an unrealistic ideal, an unaffordable luxury.” Id. If there
was testimony in Nielson’s or Sonderman’s depositions substantiating Pelcha’s characterizations of that testimony, she should
have cited that testimony to the Court.

App. 75
of insubordination. (Sonderman Dep. at 283–85, #1134).
In short, there is nothing about this evidence that suggests that Niesen’s concern was Pelcha’s age, rather
than her insubordination.
Based on the record before this Court, it appears
that, at the time of the termination, Watch Hill offered
Pelcha no rationale beyond insubordination, and it has
not offered anything other than additional, nondiscriminatory reasons (to the extent it has offered reasons at all) since then. This is insufficient evidence of
pretext.
ii. Pelcha Cannot Establish Disparate
Treatment As Evidence of Pretext.
Pelcha then argues that she was subjected to lessfavorable working conditions than non-protected (i.e.,
younger) employees, and that this evidences pretext.
For this argument to succeed, Pelcha must provide “evidence that other employees, particularly employees
outside the protected class, were not disciplined even
though they engaged in substantially identical conduct
to that which [Watch Hill] contends motivated its discipline of [Pelcha].” Miles, 946 F.3d at 893 (quotation
omitted).
Analysis of her argument, at this stage, is akin to
the comparator framework often utilized at the prima
facie stage. See id. Under that framework, to carry her
burden, Pelcha must “produce evidence which at a minimum establishes (1) that [she] was a member of a
protected class, and (2) that for the same or similar

App. 76
conduct [she] was treated differently than similarlysituated employees outside the protected class.” Id.
(quoting Mitchell, 964 F.2d at 582–83). That framework helps determine whether Watch Hill’s treatment
of Pelcha’s comparators is “enough evidence for a rational juror to infer” that Watch Hill’s proffered reasons for terminating Pelcha were pretextual Id.
To be similarly situated to the plaintiff, though,
the comparator employee “must have been the same
in all relevant aspects,” except for belonging to the
protected class. Kumar v. Aldrich Chem. Co., 911
F. Supp. 2d 571, 585 (S.D. Ohio 2012) (citing Bobo v.
United Parcel Serv., 665 F.3d 741, 751 (6th Cir. 2012),
abrogated on other grounds, Univ. of Tex. Sw. Med. Ctr.
v. Nassar, 570 U.S. 338, 360 (2013)). In close cases, that
may be a jury question. See Jones v. Johnson, No. 182252, 2020 WL 113996, at *11 (6th Cir. Jan. 9, 2020).
But certainly not always. See Tennial v. United Parcel
Serv., 840 F.3d 292, 309–10 (6th Cir. 2016) (refusing to
stay consideration of UPS’s Rule 56(d) motion, stating
that “Tennial’s demotion was the result of his poor performance” when the three comparator employees were
instead “alleged to have engaged in ‘serious integrity
violations’ ”). This is especially true when the alleged
misconduct is different. Id.
While the Sixth Circuit has provided some useful
considerations to guide the substantially-similar analysis, see Mitchell v. Toledo Hospital, 964 F.2d 577, 583
(6th Cir. 1992); Laws v. HealthSouth Northern Kentucky Rehabilitation Hospital Limited Partnership,
508 F. App’x 404, 411 (6th Cir. 2012), it has also

App. 77
cautioned these are not dispositive in every circumstance. See Bobo, 665 F.3d at 751 (“Courts should not
assume the specific factors discussed in Mitchell are
relevant factors in cases arising under different circumstances, but [courts] should make an independent
determination as to the relevancy of a particular aspect of the plaintiff ’s employment status and that of
the non-protected employee.” (citing Ercegovich, 154
F.3d at, 352)). Those considerations include whether
the employee: (1) “dealt with the same supervisor,” (2)
was “subject to the same standards,” and whether they
(3) “engaged in the same conduct without such differentiating or mitigating circumstances that would distinguish their conduct or the employer’s treatment of
them for it.” Ercegovich, 154 F.3d at 352 (citation omitted). While a comparator need not be like the plaintiff
“in every single aspect of their employment,” they must
be alike in “all relevant aspects,” id. at 349, and “[t]he
key word in Ercegovich is ‘relevant.’ ” Bobo, 665 F.3d at
751. This means “that the factors listed in Mitchell or
other cases are only apposite where they are meaningful to the particular claim of discrimination presented.”
Id.
Pelcha identifies several proposed comparator employees, but none are substantially similar on the facts
here, principally because the conduct at issue is meaningfully different.
Lindsay Crothers. Pelcha first offers Lindsay
Crothers, who was 38 at the time of her deposition and
thus outside the protected class, as a good comparator.
But the problem for Pelcha is that Crothers’ alleged

App. 78
shortcomings at work had nothing to do with insubordination. Rather, according to Pelcha, Crothers was
gossipy, had a hard time integrating into her role, and
displayed an “immature attitude” toward coworkers
and customers. (Pl.’s Opp’n to WHB at #847–48; Sonderman Dep. at 78–80, #905). As these are different
forms of poor behavior, Crothers is not a good comparator for demonstrating pretext.
Joe Vortkamp. Joe Vortkamp is even less similar to
Pelcha than Crothers is. Although also outside the protected class (he was 31 at the time of his deposition),
Vortkamp was written up for improperly debiting a
customer account, which is substantially different
from Pelcha’s alleged workplace issues. (Dep. of Joe
Vortkamp at 4, Doc. 50-7, #929; See Dep. Ex. 38, #986).
Rebecca Firestone. The last remaining proposed
comparator, Firestone, is perhaps Pelcha’s best shot.
Firestone was 30 at the time of her deposition and thus
outside the protected class. (Firestone Dep. at 9, #897).
At first glance, she seems to have similar leave policy
issues, as she admitted during her deposition that she
did “not recall filling out a form to take time off to see
a doctor.” (Firestone Dep. at 35, #898). But that promising start soon fell apart—after being presented with
a leave request form in her handwriting, Firestone recalled that she had in fact filled out leave request
forms for her doctor appointments. (Id. at 105–06,
#1142–43). Thus, the failure to discipline her—when
she had complied with the leave policy—says nothing
about pretext as to Pelcha—who was terminated after
she intentionally failed to do so.

App. 79
iii. Pelcha’s “Me Too” Evidence Is Insufficient To Show Pretext.
Pelcha next tries to establish pretext by claiming
this Court “may also consider adverse actions taken
against other older employees as circumstantial evidence of age discrimination.” (Pl.’s Opp’n to WHB at
#854 (citing Griffin, 689 F.3d 584)). On that front, the
Sixth Circuit has noted that “[e]vidence that an employer engaged in a pattern or practice of discrimination ‘may be relevant to proving an otherwise-viable
individual claim for disparate treatment under the
McDonnell Douglas framework.’ ” Megivern v. Glacier
Hills, Inc., 519 F. App’x 385, 399 (6th Cir. May 16, 2013)
(emphasis added) (quoting Bacon v. Honda of Am. Mfg.,
Inc., 370 F.3d 565, 575 (6th Cir. 2004)). But, “[w]hether
such evidence is relevant is a case by case determination that ‘depends on many factors, including how
closely related the evidence is to the plaintiffs circumstances and theory of the case.’ ” Griffin, 689 F.3d at
598 (quoting Spring/United Mgmt. Co. v. Mendelsohn
(“Sprint”), 552 U.S. 379, 388 (2008)).
Here, the record evidence of this type fails to buttress Pelcha’s claim. First, Pelcha has not presented
an “otherwise viable” disparate treatment claim as it
relates to any of the comparators discussed above. For
this “me too” argument, however, she now points to
Janet Schneider. Pelcha claims Schneider was terminated “through forced resignation,” seemingly because
she was older too, but offers no record citation

App. 80
supporting that fact.7 Even if Schneider had been
forced out due to her age, there is no indication Schneider exhibited any insubordination at all, let alone that
she engaged in the same type of insubordination that
Pelcha did. As a practical matter, too, Schneider could
not have been subject to the same leave policy at issue
here, which Sonderman implemented, because Sonderman replaced Schneider and adopted the policy thereafter.
Pelcha then raises Brenda Sonderman, who was
in fact terminated. But the record offers no evidence as
to why Sonderman was terminated, other than that it
was not for “violating the code of conduct,” which would
ostensibly encompass insubordination. (See Niesen
Dep. at 52–53, #866).
Finally, to the extent Pelcha argues Niesen’s comments about Becky Roush are “me too” evidence, Roush
was never terminated, but retired in March 2019. (See
Niesen Dep. at 185–86, #1181). In short, none of this
evidence suffices to meet Pelcha’s burden to demonstrate Watch Hill’s reason for terminating her employment was impermissible pretext.

7

During his deposition taken by Pelcha’s counsel, Niesen indicated that during his seven or eight years with Watch Hill, only
three employees had ever been terminated: Pelcha, Sonderman,
and a teller whose name he could not recall. (See Niesen Dep. at
51, #866). The teller, at least, was younger than 40 when terminated, a fact Pelcha freely admits (Pl.’s Opp’n to WHB at #854
n.10).

App. 81
iv. Niesen’s Comments Alone Are Insufficient Evidence of Pretextual Age
Discrimination.
Fourth, Pelcha asserts that Niesen’s allegedly ageist comments (described above) sufficiently demonstrate pretext.8 This is admittedly a closer call than the
other evidence she presents. Certainly, discriminatory
comments, in addition to establishing a prima facie
showing, can in some circumstances also show pretext.
See Willard, 952 F.3d at 813; Blizzard, 698 F.3d at
287 (“ ‘discriminatory remarks, even by a nondecisionmaker, can serve as probative evidence of pretext’ ”
(quoting Risch v. Royal Oak Police Dep’t, 581 F.3d 383,
393 (6th Cir. 2009)). This is all the more the case when,
as here, the speaker is also the decision-maker. See
Blizzard, 698 F.3d at 287.
But exactly what kind of comments suffice to show
pretext is a bit of a quandary. In particular, can the
Court consider only comments directly related to the
termination decision? Certain Sixth Circuit cases seem
to establish a bright-line rule—remarks that are “unrelated to the decision to dismiss [the employee] from
her employment, . . . do not constitute evidence of discrimination.” Id. at 287. See also Geiger, 579 F.3dat 621
8

This is essentially an argument that Watch Hill’s “proffered
reasons did not actually motivate” her discharge. See Blizzard,
698 F.3d at 287, n.6. This would require the employee to “admit
the factual basis underlying the employers proffered explanation
and further admit that such conduct could motivate dismissal.”
Id. at 287 n.6. This is problematic because Pelcha disputes the
factual basis for Watch Hill’s termination decision in the first
place.

App. 82
(“ ‘Statements . . . by decisionmakers unrelated to the
decisional process itself [cannot] suffice to satisfy the
plaintiffs burden . . . of demonstrating animus.’ ” (alterations in original) (quoting Bush v. Dictaphone
Corp., 161 F.3d 363, 369 (6th Cir.1998)). Other cases,
though, have noted that, while “a direct nexus between
the allegedly discriminatory remarks and the challenged employment action affects the remark’s probative value, the absence of a direct nexus does not
necessarily render a discriminatory remark irrelevant.” Ercegovich, 154 F.3d at 355.
Similarly, the Sixth Circuit has noted in one (admittedly unpublished) decision that the reliance on
statements allegedly directed at other employees makes
any showing of pretext more “attenuated,” Bigelow v.
ANR Pipeline Co., No. 96-1642, 1997 WL 428964, at *5
(6th Cir. July 29, 1997), but has also suggested that
courts may rely on such statements, at least to “buttress” a finding of discrimination. See Howley v. Fed.
Express Corp., 682 F. App’x 439, 446 (6th Cir. 2017). Finally, appellate courts seem to agree that “isolated” or
“sparse” age-related comments will not suffice. See
Phelps v. Yale Sec., Inc., 986 F.2d 1020, 1025 (6th Cir.
1993) (noting that “isolated and ambiguous comments
are too abstract, in addition to being irrelevant and
prejudicial, to support a finding of age discrimination”
(quotations omitted)); Mikinberg v. Bemis Co., 555 F.
App’x 34, 36 (2nd Cir. 2014) (“The sparse age-related
comments to which Mikinberg points are inadequate
to suggest these reasons are pretextual.”).

App. 83
At bottom, perhaps it merely comes down to a
“commonsense” assessment, see Miles, 946 F.3d at 888,
of the remarks, both in the context of the situation in
which they were offered, the person who made them,
the person to whom they were made, and the other evidence of pretext. In Blizzard, for example, comments
that “most of the people here are the old people like
you,” that the employee had been “in his job too long,”
and that he was “lazy and didn’t work,” were insufficient to establish pretext, even though directed at the
employee at issue, when the speaker was not a nondecisionmaker. Blizzard, 698 F.3d at 287. But in Willard,
952 F.3d at 813, repeated and unambiguous comments
by decisionmakers, again directed to the plaintiff himself, that he was “old and fat,” “over-the-hill,” and calling him a “dinosaur” and “grandpa,” were sufficient
evidence of pretext.
The comments here seem to occupy somewhat of a
middleground. There is no question that the speaker,
Niesen, was the decisionmaker. But the statements to
which Pelcha points were not pervasive (they appear
to have been sporadic or infrequent comments that
were directed solely at only one employee, Roush),
were not unambiguously ageist (for the reasons discussed above, the comments arguably related to duration rather than age), were not directed to Pelcha, or
even an employee near Pelcha’s age, and were not
made in connection with her termination decision (indeed, were not made in connection with any termination decision). Allowing such comments to create a jury
question would essentially mean that any potentially

App. 84
ageist comments, about any employee, at any time,
so long as made by the same person who made the
decision at issue would suffice to get past summary
judgment—even if the terminated employee is of a significantly different age from the employee to whom the
comments were directed. That is not reasonable. Put
somewhat differently, even if the evidence suggests
that Niesen may have had an age-based animus toward a worker who was in her eighties, that does not
give rise to a reasonable inference that he likewise had
such an animus to Pelcha, who was in her forties. Niesen’s further comments about his desire to have young
tellers perhaps add some additional weight to his comments about Roush, but again, as the Sixth Circuit has
held, a stated desire to hire young workers is not the
same as a desire to fire older ones. See Miles, 946 F.3d
at 896 (“Even if [the employer] wanted to attract young
people, that says nothing about terminating older employees.” (emphasis in original)).
Is sum, while the analysis may well be different if
it were Roush, rather than Pelcha, who had been terminated, the Court concludes that a jury could not
reasonably infer a discriminatory intent as to Pelcha
based on the cited comments, whether considered
alone or in combination. Thus, this evidence does not
establish a jury question on pretext.

App. 85
v. Pelcha’s View That Her Punishment
Did Not Fit The Crime Is Insufficient
Evidence of Pretext.
Fifth and finally, Pelcha’s argument that her punishment did not fit the crime and that she believes her
termination was “objectively irrational” is of little consequence. “[A]n employer may fire an employee for a
good reason, a bad reason, a reason based on erroneous
facts, or for no reason at all, as long as its action is not
for a discriminatory reason.” Miles, 946 F.3d at 886.
“ ‘[A]n employer’s failure to follow self-imposed regulations or procedures is generally insufficient to support
a finding of pretext.’ ” Id. at 896 (quoting White v. Columbus Metro. Hous. Auth., 429 F.3d 232, 246 (6th Cir.
2005)). Watch Hill’s employee handbook specifically
says, “Watch Hill bank reserves the right to terminate
employment for any reason.” (Watch Hill Employee
Handbook, Doc. 50-8, #971). Even Pelcha understood
she was an “at will” employee, meaning Watch Hill
could terminate her employment at any time. (Pelcha
Dep. at 111, #535). The fact that she disagreed that she
should have been terminated for the stated reason
does not show that the offered reason was pretext for
discrimination.
Likewise, Pelcha’s assertion that Watch Hill failed
to follow its internal discipline policy does not establish pretext. See, e.g., Steele v. Edward D. Jones & Co.,
L.P., 780 F. App’x 313, 317 (6th Cir. 2019) (noting an
employer declining to follow a progressive discipline
policy was insufficient evidence of pretext); Wolf v.
Antonio Sofo & Son Importing Co., 919 F. Supp. 2d 916,

App. 86
926 (N.D. Ohio 2012) (failing to follow internal progressive discipline policy before terminating an at-will employee failed to establish pretext). To be sure, discipline
short of termination was an option, and one that Watch
Hill did not exercise in her case. But that is not indicative of pretext. Watch Hill’s employee handbook says
that “corrective action is typically ‘progressive’ and
may follow” certain steps. (Watch Hill Employee Handbook, Doc. 50-8, #971 (emphasis added)). Moreover, the
very next sentence says that “[s]ome performance concerns are serious enough to not follow a progressive
schedule.” (Id.). Insubordination, for which Niesen
claims he had “zero tolerance,” may not necessarily
result in progressive discipline, but instead could be
“serious enough” to warrant immediate termination.
In that regard, Pelcha does not put forth any evidence
that other, non-protected employees were afforded progressive discipline following acts of insubordination
like hers. Her argument on this point is unavailing.
vi. Conclusion
Pelcha has sufficiently established a prima facie
case of age discrimination to avoid summary judgment.
But Watch Hill responded by providing a legitimate,
non-discriminatory reason for terminating her employment. Thus, this case comes down to the question
of pretext—in particular, has Pelcha created a jury
question as to whether Watch Hill’s stated reason was
mere pretext and that the but-for cause of her termination was age discrimination?

App. 87
At least one witness described the workplace
at Watch Hill as “toxic.” (Schneider Dep. at 43–44,
#892). That may well have been true. Some testimony
suggested that in-fighting and negativity abounded
among employees. And there is evidence from which
one could argue that Niesen could be harsh or overly
reactive in personnel decisions, perhaps making him a
difficult boss, and maybe contributing to negative perceptions of the work environment. There is likewise no
question that three management personnel, Schneider,
Sonderman, and Pelcha, all resigned or were terminated in a short period of time.
But over-reacting, or even creating a “toxic” work
environment, is different from age-discrimination, and
it is Pelcha’s task to create a jury question on that latter issue here. The evidence set forth above, considered
in its totality, fails to do so.9 In short, the Court finds
that, considering all of the record evidence, there is no
basis on which a jury could reasonably infer that the
but-for cause of 47-year-old Pelcha’s termination was
her age. Accordingly, Watch Hill is entitled to summary
judgment on the AREA claim (Count I). Moreover, because Pelcha’s state law anti-age discrimination claim
(Count II) follows her federal claim, Watch Hill is entitled to summary judgment on that claim as well.
9

While the Court’s opinion discusses the evidence of pretext
by grouping it in categories, the Court did so in an effort to clearly
set forth its analysis as to each different kind of evidence. In making the ultimate decision as to whether the evidence created a
jury question regarding pretext, though, the Court considered all
such evidence as a whole.

App. 88
C. MW Bancorp is Entitled to Partial Summary
Judgment.
Having granted Watch Hill summary judgment on
the discrimination claims, the Court finds that it need
not, and thus does not, reach the issue of whether MW
Bancorp is entitled to summary judgment on Pelcha’s
joint employer or single employer claim. As Watch Hill
did not violate the AREA, the single or joint employer
question is of no moment, and reaching that issue
would amount to little more than an advisory opinion.
See, e.g., Wilson v. O’Brien & Wolf, LLP, No. 0:17-cv01885, 2018 WL 296074 (D. Minn. Jan. 4, 2018) (“Plaintiffs’ suit before this Court is nothing more than an academic exercise, seeking an advisory opinion from this
Court, having no impact on the parties’ rights or obligations.”). Indeed, Pelcha’s counsel confirmed at oral
argument that joining MW Bancorp in this action was
done more by way of seeking an insurance policy related to collectability in the event that she prevailed
(given MW Bancorp’s acquisition of Watch Hill), not an
indication that MW Bancorp’s own conduct was in any
way related to the merits of Pelcha’s age discrimination claim. Thus the Court declines to do address the
single or joint employer issues until such a time, if ever,
that a ruling is necessary.
Pelcha’s shareholder claim, by contrast, remains a
live issue, but not for long, as MW Bancorp is entitled
to summary judgment on that claim. Pelcha purports
to assert shareholder rights, under Ohio law, as a
means for demanding certain information MW Bancorp (and perhaps about Watch Hill, which is a wholly

App. 89
owned subsidiary of MW Bancorp). That claim is a nonstarter. To be sure, it appears that Pelcha owns shares
in MW Bancorp, but MW Bancorp is a Maryland corporation. Under the internal affairs doctrine, shareholder rights are governed by the laws of the state of
incorporation. See Edgar v. MITE Corp., 457 U.S. 624,
465 (1982). Thus, Ohio law provides no basis for Pelcha
to assert shareholder rights.
Confronted with this problem at oral argument,
her counsel suggested that, as Pelcha owns shares in
MW Bancorp, and as MW Bancorp owns 100% of the
shares of Watch Hill, perhaps Pelcha is an indirect
shareholder in Watch Hill, which is an Ohio company.
That argument fails, as well. Shareholders own shares
in the company; they do not own the company’s assets.
Here, Watch Hill’s shares are an asset that MW Bancorp owns. Pelcha’s claim that she is an indirect owner
of those shares is akin to claiming that, if she owned
shares in Ford, she would be a partial owner of the cars
that Ford produces, or the plants in which Ford produces them. Poppycock. To be sure, MW Bancorp can
assert shareholder rights in Watch Hill, and those
rights are governed by Ohio law. But Pelcha, in her capacity as a shareholder of MW Bancorp, has no basis,
direct or indirect, for asserting those rights.
CONCLUSION
For the reasons above, the Court GRANTS Defendant Watch Hill Bank’s Motion for Summary Judgment (Doc. 46), GRANTS IN PART Defendant MW

App. 90
Bancorp’s Motion for Summary Judgment (Doc. 47),
as it relates to the shareholder claim and DENIES IN
PART AS MOOT MW Bancorp’s Motion as it pertains
to its status as a single or joint employer. The Court
DIRECTS the Clerk to enter judgment accordingly.
SO ORDERED.
April 17, 2020
DATE

/s/ Douglas R. Cole
DOUGLAS R. COLE
UNITED STATES
DISTRICT JUDGE

App. 91
No. 20-3511
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
MELANIE PELCHA,

)
)
Plaintiff-Appellant,
)
ORDER
v.
)
) (Filed Apr. 29, 2021)
MW BANCORP, INC.;
)
WATCH HILL BANK,
)
Defendants-Appellees. )
BEFORE: SUHRHEINRICH, McKEAGUE, and
READLER, Circuit Judges.
The court received a petition for rehearing en
banc. The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original submission and decision of the case. The petition then was
circulated to the full court. No judge has requested a
vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.
ENTERED BY ORDER OF
THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

